<html>
<title> - THE PROPOSED DWIGHT D. EISENHOWER MEMORIAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
              THE PROPOSED DWIGHT D. EISENHOWER MEMORIAL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        Tuesday, March 20, 2012

                               __________

                           Serial No. 112-102

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
73-488                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Paul Tonko, NY
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 20, 2012..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
    Garamendi, Hon. John, a Representative in Congress from the 
      State of California........................................     6
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Boswell, Hon. Leonard L., a Representative in Congress from 
      the State of Iowa..........................................     7
    Cole, Bruce, Senior Fellow, Hudson Institute, and Past 
      Chairman, National Endowment for the Humanities............    57
        Prepared statement of....................................    58
    Cook, Rodney Mims, Jr., President, National Monuments 
      Foundation.................................................    52
        Prepared statement of....................................    54
    Eisenhower, Susan, Representing the Eisenhower Family........    10
        Letters submitted for the record.........................    12
        Prepared statement of....................................    13
        Response to questions submitted for the record...........    18
    Guerin, William J., Assistant Commissioner for the Office of 
      Construction Programs, Public Buildings Service, U.S. 
      General Services Administration............................    26
        Prepared statement of....................................    28
        Response to questions submitted for the record...........    30
    Reddel, Brig. Gen. Carl W., USAF (Ret.), Executive Director, 
      Dwight D. Eisenhower Memorial Commission...................    34
        Prepared statement of....................................    37
        Response to questions submitted for the record...........    42
    Segermark, Howard, Chairman Emeritus, Director, National 
      Civic Art Society..........................................    49
        Prepared statement of....................................    50
    Whitesell, Stephen E., Regional Director, National Capital 
      Region, National Park Service, U.S. Department of the 
      Interior...................................................    21
        Prepared statement of....................................    23

Additional materials supplied:
    Childs, David M., Architect, New York, New York, Letter 
      submitted for the record...................................     6
    Eisenhower, David, Letters submitted for the record..........    66
    Gehry, Frank, Gehry Partners LLP, Los Angeles, California, 
      Letter submitted for the record............................     4
                                     



  OVERSIGHT HEARING ON ``THE PROPOSED DWIGHT D. EISENHOWER MEMORIAL.''

                              ----------                              


                        Tuesday, March 20, 2012

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop; Grijalva, Kildee, DeFazio, 
and Garamendi.
    Mr. Bishop. The Subcommittee on National Parks, Forests and 
Public Lands is meeting today to hear testimony on the proposed 
Eisenhower Memorial. Under the Rules, the opening remarks are 
limited to the Chairman and Ranking Member. However, I ask 
unanimous consent to include any other Member's opening 
statement in the hearing record if submitted to the Clerk by 
close of business today. And hearing no objections, so ordered.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. I would thank everyone who has agreed to 
testify today. Although today's witnesses will express 
differing opinions on the proposed design, I know that 
everyone, critics and advocates alike, want a memorial, a 
monument, that truly honors President Eisenhower and helps 
future generations of Americans understand and appreciate his 
role in American history.
    To my staff, who actually started drafting notes for me, I 
want them to know that I was alive when President Eisenhower 
was elected, but I was still crawling, not necessarily that 
old. So most of my memories actually come from books that have 
been written about him, which is where many of us learned about 
the significant contribution of President and General 
Eisenhower.
    Some Members of Congress today probably served under 
General Eisenhower in World War II, and some served in Korea 
when he was President a half-century ago. But whether we come 
from personal memories or from our studies, he is to all of us 
a man who led our fathers and grandfathers in the crusade for 
Europe, and later the President who halted and contained Soviet 
expansion during the Cold War era.
    I do want to note that many lessons can be learned from his 
life. I just recently read a biography of President Eisenhower, 
which talked about when he was--I think he was still a 
lieutenant in the Army, and had his first child, and applied 
for and was given a housing increase supplement, only to find 
out, through one of the technicalities, he did not earn the 
supplement.
    When he found out and his supervisors found out, they were 
chagrined. He offered to pay back the $250.67. Unfortunately, 
the Inspector General wanted a court-martial. Fortunately for 
this country and the world, some of his superiors realized 
there was potential in this young Army officer and did not have 
the same slavish adherence to rules that sometimes we find in 
bureaucracies in Washington today, and common sense prevailed.
    I say that only because we are going to go directly to a 
bill on the Floor today in which the issue is, do we have 
slavish adherence to rules or will common sense actually 
prevail? There is much that we can learn from this situation.
    I personally am excited. I have only three busts in my 
house. One of them is of President Eisenhower that we got in 
Abilene on one trip.
    Today we are going to review the progress that has been 
made in carrying out Congress' call for the Eisenhower Memorial 
that would perpetuate his memory and his contributions to the 
United States. At today's hearing we are going to hear from 
Susan Eisenhower, speaking on behalf of the Eisenhower family, 
and from representatives of the Dwight D. Eisenhower Memorial 
Commission, and Federal agencies that produced the current plan 
We will also hear from distinguished private citizens who have 
examined the proposal and want to express their views.
    This is perhaps a key moment in the course of this monument 
because the groundbreaking is scheduled to be imminent, and we 
must decide this year whether to go ahead with the current 
proposal or pause for future evaluations. The information and 
views we hear today will be invaluable to determining the 
course that we take.
    I am pleased to see that C-SPAN is televising this hearing 
because I like Ike, just as the American people like Ike, and I 
want them to hear about the Memorial directly from those who 
are involved in shaping it.
    When Mr. Grijalva, who is on his way, the Ranking Member of 
this Subcommittee appears, we will give him the opportunity to 
introduce his opening remarks. In lieu of that, we will ask our 
first witness who is here, who is Representative Boswell of 
Iowa, who I believe is a member of this Commission that is 
doing that, who has requested to give remarks. We are very 
pleased to have you here at our committee, Representative.
    Actually, you cannot speak yet, maybe. Mr. Boswell, we are 
really happy to have you here, and you are going to wait 
longer.
    Mr. Boswell. Well, thank you very much, Mr.----
    Mr. Bishop. But no, Mr. Boswell, you are going to have to 
wait because your colleague, Representative Grijalva, who is 
the Ranking Member, has arrived, and he has some opening 
remarks. And then we are going to turn to you, if that is OK. 
Thank you.
    Mr. Grijalva?

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and my apologies, 
Congressman, friend. Let me welcome all the guests and fellow 
Committee Members. And I want to thank everyone that is going 
to be involved in testifying today.
    This is a very unusual hearing. I cannot help but feel that 
we are micromanaging something well outside our purview. 
Congress has a very limited role in this dilemma, controversy.
    The Eisenhower Memorial Commission was established in 
October of 1999 as part of the Department of Defense 
Appropriation Act. The Memorial has been following a very 
deliberate process established through the Commemorative Works 
Act of 1986. Eight members of the Eisenhower Commission were 
appointed by Congress, and we have done that part of our work.
    I am not an art critic. I doodle, but I do not consider it 
art. Some people value it as art, and they could be horribly 
mistaken because that is the point about beauty is in the eye 
of the beholder.
    This fresh new design for the Presidential Memorial has 
been reviewed by people with far more expertise than me. I look 
forward to receiving an update on the progress of the 
Commission and better understanding the source of the 
controversy surrounding the design. However, I do not think 
this subcommittee, the full Committee, or Congress is the 
appropriate place to litigate a memorial design or a potential 
family dispute.
    I have two letters to submit, Mr. Chairman, for the record, 
one from Frank Gehry, the renowned architect chosen to design 
the Memorial; another letter is from David Childs, the former 
Chairman of the National Capital Planning Commission and the 
Commission of Fine Arts.
    Again, let me thank everybody in advance for your 
testimony. And with that, if any remaining time, with the 
Chairman's indulgence, if I could give that time to my 
colleague from California if he may have any opening 
statements, with your concurrence.
    Mr. Bishop. Sure.
    Mr. Grijalva. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Good Morning to our guests and my fellow committee members. I want 
to thank you all for testifying today.
    This is a very unusual hearing--one that feels like micromanagement 
of something well outside our purview. Congress has a very limited role 
in this controversy.
    The Eisenhower Memorial Commission was established in October of 
1999 as part of the Department of Defense Appropriations Act.
    The memorial has been following a very deliberate process 
established through the Commemorative Works Act of 1986.
    Eight Members of the Eisenhower Commission are appointed by 
Congress. We have done our work.
    I am not an art critic. I draw--some people value it as art. The 
point is that the beauty is in the eye of the beholder.
    This fresh new design for a Presidential Memorial has been reviewed 
by people with far more expertise than me. I look forward to receiving 
an update on the progress of the Commission and better understanding 
the source of the controversy surrounding this design.
    However, I don't think this subcommittee, this Committee, or 
Congress is the appropriate place to litigate a memorial design or a 
potential family dispute.
    I have two letters to submit for the record.
    One from Frank Gehry (Geer ee) the renowned architect chosen to 
design the memorial.
    Another letter is from David Childs, the former Chairman of the 
National Capital Planning Commission and the Commission of Fine Arts.
    Thank you again for your testimony.
                                 ______
                                 
    [The letters submitted by Mr. Grijalva follow:]

    [GRAPHIC] [TIFF OMITTED] T3488.005
    
    [GRAPHIC] [TIFF OMITTED] T3488.006
    
    [GRAPHIC] [TIFF OMITTED] T3488.007
    



   STATEMENT OF THE HON. JOHN GARAMENDI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. Mr. Chairman, if I might, first of all I am 
really looking forward to this hearing. I agree with the 
Ranking Member that we really ought not make design questions 
here. There are others that are far more capable of doing that, 
and the Commission has it.
    But it would seem to me that our purpose ought to be to 
make sure this gets done, that we get this Memorial underway, 
and that it become available for the general public to 
memorialize and to remind us of the incredible contributions 
that this man made, together with millions of other Americans 
during World War II, before, and after, in his Presidency.
    So we get on with the hearing here. Art is always 
controversial, and certainly memorials--to this day, some on 
the monument remain controversial. But it ought to be our task 
to sort out any delays that there may be and the causes of 
those delays, and what we can do to get this project underway 
and completed.
    I yield back.
    Mr. Bishop. Thank you.
    All right. Leonard, we have done our formal work here. We 
now turn five minutes to you for any remarks you may have.

 STATEMENT OF THE HON. LEONARD L. BOSWELL, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Boswell. Well, thank you, Mr. Chairman, Chairman Bishop 
and Ranking Member Grijalva. I appreciate it, and it is good to 
be here.
    I kind of felt like, as this came about, that I probably 
might appreciate having a little comment from somebody on the 
Commission. I was not on the Commission when it first started. 
I was appointed to it after it had been started, and I will 
talk about that a little bit.
    I would like to make two points, and I want you to hear, to 
know, that the Commission has done what Congress has asked it 
to do. It has been engaged. And second, it has followed the 
policies and procedures set forth. So I will say that. And they 
have been working on it for about 10 years, as you have already 
made that point, and I believe you are right. It is time to get 
it done, and we must move forward.
    The Commission has received 63 million in Federal funding, 
and about half of that has been spent. And so that gives you a 
little perspective there.
    I think what I would like to do is just kind of give you my 
testimony of what I feel about it. But first off, I am very 
delighted to have family here, the sisters. I got to meet them 
not too long ago, and read about them, and I am just very 
impressed and very appreciative of your love and your personal 
care for a great, great American.
    When I came to the Commission, it was kind of interesting. 
I served--by the way, I was World War II; I just got white 
hair, in case you are wondering, or Korea, but I did make it to 
Vietnam a couple times. But so much for that. But before that, 
I spent a tour in Germany.
    I was a young lieutenant right out of OCS, and our 
assignment was in what we referred to as the Fulda Gap. That is 
where the tanks were going to come, and that was where we, as 
members of the 8th Division, were going to be to meet them. We 
spent half of our--for four years, not continuously, but we 
spent probably half of our time out there preparing, maneuvers, 
training, and so on.
    And I got very interested in this guy named Eisenhower, and 
I became one that I, too, I liked Ike. And I knew a lot about 
him. And I went to some of the places, whether it was in 
Belgium or wherever it was, when I had the opportunity. I was 
there for four years. And I continued to grow such an 
admiration for this great, great person. And historically, he 
can never, ever be forgotten. And this Memorial on his behalf 
is something that needs to be done, and it is long overdue. And 
it has got to be right.
    But coming from South-Central Iowa, and probably, as the 
crow flies, maybe less than 200 miles from Abilene and so on, 
when I was deployed to Vietnam the first time, I went from Fort 
Riley, which is very nearby. So my family and I, we went over 
to visit there from time to time, and I took guests there, and 
the appreciation for this gentleman that came out of that part 
of our country--right from the heartland, really--and read 
about him.
    I ended up being a student, and then later an instructor, 
at the Command General Staff College, and studied the things 
that took place. And the Department of Tactics, had a lot of 
classes and reviewed some of the decisions and so on that 
General Eisenhower, the Supreme Commander, made, the 
leadership. Read a lot of material.
    And then fast-forward to when I am appointed to the 
Commission. And so I go to the first meeting, and I realize 
that they have been operating and they have been--first, I got 
one, oh, we are meeting the charter. I may have to have an 
extra minute, Mr. Chairman, I will just tell you right now; I 
hope you will consider that.
    But anyway, I saw the first idea, and I thought, I am sure 
about this. And here was this statue of a young man, and these 
great displays of the globe, looking over the country, and with 
the troops, and so on. I was not sure.
    And I got to thinking about it, and talking to some of my 
staff and different ones. And before, I had read some of the 
things that the designers and architect had come up with, and 
came to this conclusion: A lot of young people of this country 
go to the Space Museum. It seems to be the highest attraction.
    And I just all of a sudden realized what a site, what a 
spot, for Eisenhower to be right there where youngsters would 
come out of that museum, and it would just be natural, it 
seemed like, to walk across the street and see what could 
happen in a person's life.
    And I make no comparison of Leonard Boswell to Eisenhower 
at all. But I was born in a tenant farmhouse, and got to enjoy 
the American dream. And I do not have time to tell you what 
that means to me. But here is an example of the American dream. 
Who would have ever thought Abilene, Kansas, somebody would end 
up as Supreme Allied Commander and President of this great 
country? And did a wonderful job in both places.
    And so I started really falling in love with this concept, 
where a youngster today could come out of that Space Museum, 
where they go there by the thousands, and go across the street 
and see there is an example of what can happen if you apply 
yourself and learn and prepare. Who knows what might happen to 
you in your American dream?
    So I am just very impressed with this. I think it is 
terribly important that we continue to talk with the family, 
which you are going to hear about today, and the other members, 
because of this great moment to have a memorial to a great, 
great American.
    Every now and then I am still reminded of some of his 
wisdom. We probably all think about the little advice about the 
military-industrial complex and many, many, other things.
    But I just want you to know that I think the Commission is 
taking it very serious, the responsibility that the Congress 
gave them. And they want to do it in the most possible, best 
manner they can to reflect this great American. Among the 
greatest, no question about it.
    And so I will just say that I cannot speak for them, but I 
can say this from getting acquainted with the other members. 
They are very serious about it, very sincere, and want to get 
the job done, and be cognizant of the needs and satisfaction, 
of course, of the family, absolutely.
    So I think we are ready to move on, and want to do this in 
the best possible way. And I just want to say to you that I 
feel it is an honor and privilege that Leonard Boswell, born in 
a tenant farmhouse, gets to be here today and bear testimony 
and make comment, that I am just proud to be part of the memory 
of Dwight Eisenhower.
    I was out to Abilene just on the way back from visiting our 
children, and I will close, last December. And I said to my 
wife, I would like to just stop another time. We had been 
there, but it had been a few years. And we just went down there 
and sat on the grounds. We did not have a lot of time. And I 
shared with her some of the things that I probably had not 
before, back when I was instructing at Command General Staff 
College and walking the grounds where Ike had walked, and then 
reflecting on where he had come from and what he accomplished. 
Because he exercised and took advantage of the American dream.
    So with that, I thank you, Mr. Chairman, for listening to 
me and letting me run overtime. I apologize for that, but not 
too much, because we are talking about a great guy. And with 
that, I will close and leave you to your work. You have some 
great testimony coming forward, different ones, Susan and 
others, Carl, people I have great respect for. And thank you 
for your efforts to spend this time today as well. Thank you 
very much.
    Mr. Bishop. Congressman, thank you for being here with us. 
Do not worry about running overtime; I will take it out of 
Raul's time. That is appropriate here.
    [Laughter.]
    Mr. Bishop. Appreciate it. We would also invite you, if you 
would like to stay with us on the dais and participate with the 
rest of this hearing, you may. I realize you have a busy 
schedule and probably this may not be acceptable to you. But 
the invitation is there regardless.
    Mr. Boswell. Thank you very much. I may go for a moment and 
come back. Thank you very much.
    Mr. Bishop. That will work as well. Thank you.
    The next panel we would like to bring up--we have, I think, 
seven seats there, seven individuals who will be able to talk 
to us. I am sorry. The second panel, because I do not have 
enough seats up there after all, is Ms. Susan Eisenhower, who 
will be representing the Eisenhower family.
    So Ms. Eisenhower, if we can have you come up to the 
microphone. And then we will have enough room for everyone else 
that happens to be there at the time.
    Once again, any written testimony that you may have or 
present or wish to present will be included in the record, as 
will be the letters that the Ranking Member mentioned earlier 
will be added without objection to the record. We appreciate 
it.
    The timing device in front of you, for you and everyone 
else who will be speaking, is obviously--the green light 
signifies that we have it started, the yellow light signifies 
you have one minute left, and the red is when the time is 
expired. We are ready to hear your oral comments. We hope you 
can limit them to the five minutes, is possible.
    Ms. Eisenhower, thank you so very much for joining us. The 
time is yours.

                STATEMENT OF SUSAN EISENHOWER, 
               REPRESENTING THE EISENHOWER FAMILY

    Ms. Eisenhower. Thank you very much, Chairman Bishop, 
Ranking Member Grijalva, distinguished Members of the 
Committee. I would like to first acknowledge my sister Anne 
Eisenhower, who is with me here today.
    Let me say that the Eisenhower family is grateful to 
Congress for designating that an Eisenhower Memorial be built, 
and we would like to thank you personally for your leadership 
in convening this hearing. It will allow us a frank and open 
exchange of views.
    We as a family are committed to seeing that the building of 
a memorial to Dwight Eisenhower be done in an open, democratic, 
and transparent way. This is what Ike would have wanted. We 
have been gratified by the public debate that has finally 
begun, and we are grateful to all of those who have worked on 
the Commission and worked on the Memorial, especially Mr. Frank 
Gehry, who has graciously interacted with members of the 
Eisenhower family.
    The public debate has demonstrated that the American people 
overwhelmingly endorse a memorial, but they are saying it is 
time to go back to the drawing board, and we agree. Aside from 
all the things that have been said in the press and on the 
internet, we have been inundated as family members with letters 
about the unmet challenge of creating a fitting memorial.
    Given this, Mr. Chairman, the Eisenhower family sees no 
alternative but to suggest two remedies: one, to redesign the 
Eisenhower Memorial, and two, to call on the Eisenhower 
Memorial Commission to review its staff management and 
stakeholder policies. First let me address myself to the 
design.
    Great monuments in our country make simple statements that 
encapsulate the reason the memorial has been erected in the 
first place. George Washington is remembered as the Father of 
Our Country. The Lincoln Memorial declares that he saved the 
Union. The monument to Christopher Columbus at Union Station 
says he gave to mankind a New World.
    One of the main flaws of the current proposal is that 
Eisenhower's contribution to this Nation is not the central 
theme of the design. Instead of the focus on Eisenhower the 
Liberator, the Commander who led the largest military operation 
in the history of warfare, and Eisenhower the President who 
championed freedom and prosperity, the narrative relies on a 
romantic Horatio Alger notion, a young Eisenhower viewing his 
future career. The Eisenhower our Nation wants to celebrate is 
not a dreamy boy but a real man who faced unthinkable choices, 
took personal responsibility, and did his duty with modesty and 
humility.
    Symbolism will also place a vital nonverbal role in 
capturing the essence of Ike's contribution. But we have heard 
from many people in the last months who have objections to the 
80-foot metal mesh so-called tapestries. Despite the Eisenhower 
Memorial Commission's references to this ancient tradition, 
modern tapestries have generally been found in the Communist 
world. Marx, Engels, Lenin hung in Moscow during Ike's time, as 
did Mao Zedong in Beijing and Ho Chi Minh in Hanoi.
    A number of other people have mentioned that these towering 
metal scrims are, in effect, an iron curtain. If this is how it 
symbolically strikes people, could the cylindrical columns also 
be seen as missile silos?
    The number of people, including Holocaust survivors, who 
have contacted me is notable, and they have said that the metal 
curtains are reminiscent of internment. One survivor told me 
that the chain link ``fences'' reminded her of the camps.
    The proposed metal curtains are to provide a screen that 
would partially obscure the Lyndon Baines Johnson Department of 
Education. We have been concerned, and others would agree, that 
this could be seen as a symbolic affront to one of Eisenhower's 
contemporaries, the Majority Leader of the Senate during his 
presidency.
    We do not think that the design team thought of these 
things in advance. Frankly, nor did we for a while. But the 
public criticism does underscore the importance of context with 
respect to Eisenhower's life and times.
    In addition, we are concerned that the metal scrims will 
pose maintenance issues, especially in these budget constrained 
times. Any high wind would assure that leaves and trash could 
easily be caught in the metal gaps, requiring constant upkeep. 
The same can be said of interactive technology.
    So now let me address myself briefly to process. From the 
earliest days, the Eisenhower family has been calling for a 
memorial that is simple and one that focuses on Eisenhower's 
achievements. My father, John S.D. Eisenhower, Ike's sole heir 
and executor of his will, wrote to this effect. I have 
submitted the letter for the record.
    The Memorial Commission, however, has repeatedly suggested 
that, among other things, the Eisenhower family is not united 
in its views. I am also submitting a statement today from my 
brother David for the record.
    [The two letters described by Ms. Eisenhower follow:]

    [GRAPHIC] [TIFF OMITTED] T3488.003
    
    [GRAPHIC] [TIFF OMITTED] T3488.004
    


    Ms. Eisenhower. The Eisenhower family publicly intervened 
when we learned that the design concept was evolving--we knew 
it was evolving, but suddenly it was slated for fast-track 
review and a late spring groundbreaking. We are concerned about 
a groundbreaking before the money and full funds are raised, 
and we would oppose it if the gap is too large. This will be a 
public/private partnership, so getting the funding element of 
this correct is very important.
    We now believe that a redesign will be the only way to make 
this Memorial acceptable to the American people so that it can 
garner that support. Going forward, it will be critical that 
the Eisenhower Memorial Commission staff do a much better job 
of engaging the memorial stakeholders, the most important one 
being the American people. It will be their memorial, after 
all, and it will express not just the Nation's esteem for 
Eisenhower's leadership, but it will reflect who we are as a 
people and what part of this common legacy we want to leave for 
future generations.
    Thank you very much.
    [The prepared statement of Ms. Eisenhower follows:]

   Statement of Susan Eisenhower, Representing the Eisenhower Family

    Mr. Chairman, Distinguished Members:
    I would like to thank you, on behalf of the Eisenhower family, for 
convening this hearing on the Dwight D. Eisenhower Memorial. Such 
hearings can play a vital role in the memorialization process, and we 
thank you for your leadership in addressing the public interest.
    While some people may see little value in holding Congressional 
hearings on the current memorial design, all of us will benefit from a 
candid exchange of views. We, as a family, are committed to seeing that 
the building of a memorial to Dwight Eisenhower is done in an open, 
democratic and transparent way. This is what Ike would have wanted. He 
believed that public engagement and support is a crucial element in 
assuring any successful process and in meeting any collective 
objective.
    Let me also say that my family is most grateful to the Eisenhower 
Memorial Commission, the General Services Administration and the 
National Park Service--as well as Mr. Frank Gehry, for the efforts he 
and they have made in bringing the memorial to this stage.
    Mr. Chairman, On June 12, 1945, Dwight Eisenhower stood on the 
balcony of London's Guildhall, where he was to receive the Freedom of 
the City of London. Europe lay in ruins. More than 15 million people in 
the Western part of continent had perished, not counting the 25 million 
Soviets who died on the Eastern Front. Eisenhower, who had victoriously 
commanded the largest military operation in the history of warfare, 
stood before millions of cheering Londoners. He spoke of the war and 
the collective effort to defeat Nazism. Without notes Eisenhower began 
his speech. ``Humility,'' he said, ``must always be the portion of any 
man who receives acclaim earned in the blood of his followers and the 
sacrifices of his friends.''
    These simple words, crafted without the help of a speech writer, 
give us a guide for capturing the essence of World War II's Supreme 
Commander of Allied Expeditionary Forces, Europe and later our nation's 
two-term president.
    Eisenhower was born in the era of the horse and buggy. He ushered 
in the space age. Though his life straddled these two different periods 
in technological achievement and national life, he was a man who 
revered tradition and was grounded in the classics. Eisenhower had the 
capacity to inspire people of differing viewpoints to forge a common 
purpose, even in the most fractious, complex and perilous 
circumstances. It is these qualities, in the context of his 
achievements, which we hope will be memorialized.
    The Eisenhower family has two major concerns about the development 
of the Eisenhower Memorial at this particular point. One is the 
proposed design and concept and the other is the process that has 
brought us to this place. In both cases we see no alternative but to 
ask for strong remedies.
    We propose that the Eisenhower Memorial be redesigned and we call 
on the Eisenhower Memorial Commission to undergo a top down review of 
its staff management practices, with the goal of streamlining its 
operations, reviewing its stakeholder policies, and reengaging in a 
meaningful way with the Eisenhower Legacy organizations, many of which 
were founded by Dwight Eisenhower himself.

A Monumental Imperative
    We have been heartened by the robust public debate on how best to 
remember Dwight Eisenhower. Stories have appeared in newspapers from 
our country's largest cities to some of our smallest towns, and all 
across the internet. Since an active public debate began at the end of 
last year, comments from the public and the pundits have made wide-
ranging points. Many of them have underscored what we have always 
known: great monuments in our country make simple statements that 
encapsulate the reason the memorial has been erected. George Washington 
is remembered as ``the Father of our Country;'' The Lincoln Memorial 
declares that he ``He saved the Union;'' the monument to Christopher 
Columbus in front of Union Station says: ``[He] gave to mankind a new 
world.''
    One of the main flaws of the current proposal for the Eisenhower 
Memorial is that Eisenhower's contribution to this nation is not the 
central theme of the design. The narrative is muddled and never really 
gives us the ``bottom line'' phrase that articulates his contribution 
to the nation.
    The current design calls for eighty-foot metal curtains to be 
suspended from columns of the same height, scattered on a four-acre 
site. These are approximately eight stories high, or the size of a 
typical office building. The metal curtains are designed to create a 
new kind of public square. Originally the metal scrims were to depict 
images of Eisenhower in his lifetime, but on the request of the 
approval authorities the Eisenhower Memorial Commission and Gehry and 
Associates were asked to find something ``more artistic.''
    The current design now depicts a Kansas landscape. In the shadow of 
this three sided enclosure, a young life-size Eisenhower--his age is 
now currently under discussion--would be sculpted. Atop a stone ledge 
he is to sit ``dreaming'' of his future roles as Supreme Allied 
Commander and as a two-term president. Two well-known photographs would 
illustrate Eisenhower's accomplishments in bas relief.
    Proponents of the young Eisenhower believe that children will be 
inspired by seeing themselves in the design-element's young Eisenhower. 
I wonder about this premise. Children are not impressed by children. 
They want to be Super Heroes. Perhaps that is why a visit to the 
Lincoln Memorial in one's youth remains a memory. The Lincoln Memorial 
is awe inspiring.
    Despite the fact that recently released EMC documents show the bas 
reliefs as ``monumental,'' the metal curtains dominate and define the 
space. They set Eisenhower's life in the context of his upbringing, not 
in the context of the times in which he lead this country against 
fascism and communism--movements that posed existential threats to this 
country and our allies.
    The Horatio Alger-like narrative that Eisenhower grew up to ``make 
good'' is a slight on the countless millions of people, during World 
War II and the Cold War, whose very existence were directly affected by 
Eisenhower's decisions. Menachem Rosensaft, Vice President of the 
American Gathering of Jewish Holocaust Survivors and Their Descendants, 
wrote me of this: ``I grew up revering first General then President 
Eisenhower as the commander of the liberating armies that enabled my 
parents to live.''
    Eisenhower's professional assignments carried none of the romantic 
notion that is embodied in the current memorial concept and design. He 
was the person tapped to end the horrors of a Nazi-occupied Europe and 
later to lead the United States and her allies to halt communist 
aggression and avoid nuclear Armageddon. The man we celebrate is not a 
dreamy boy, but a real man who faced unthinkable choices, took personal 
responsibility and did his duty--with modesty and humanity.
    The debate on this memorial has produced a groundswell of support 
for the idea of an Eisenhower Memorial while, at the same, expressing 
overwhelming opposition to the proposed concept and design. What has 
been seen in the newspapers and online is only piece of it. My family 
has been inundated with expressions of support for a 
reconceptutialization of the memorial and a redesign of its elements.
    So where do we go from here?
    The task is to articulate Eisenhower's leadership and courage to 
future generations, and symbolically express his contribution to this 
nation. Exciting ideas have been suggested by many.
    Aviva Kempner, a film producer and Washingtonian whose mother was a 
Holocaust survivor, wrote me: ``For us, Ike was the leader of the free 
world against tyranny. That is always how we will remember him and 
honor him. . .General Eisenhower was a revered name in our home and not 
a boy walking in the rye.''
    A Washington resident, born and raised in Great Britain, also wrote 
me, wondering how Eisenhower's background could be the theme of this 
memorial: ``When I think of my own father flying scores of missions in 
WWII as a British bomber pilot, the sacrifice of countless Americans, 
the millions of Russians and Jews who died, etc. . .we should be 
memorializing what Eisenhower THE MAN did to overcome the horror of 
that time...''
    ``Liberator,'' an African American colleague suggested, while 
reflecting not just on the war but on the desegregation of Washington 
DC and the armed forces--both early Eisenhower administration 
accomplishments. ``Champion of Peace and Prosperity,'' a New Yorker 
wrote. As president, Eisenhower managed to pay down America's enormous 
WWII debt and balance the budget three times in eight years. He left 
his successor with a budget surplus, while modernizing America for the 
future.

The Challenge
    Getting the conceptual narrative right is hard enough, but 
symbolism plays an equally vital non-verbal role. In this case, the 
design is on even shakier ground. We've heard from many people who 
object to the symbolism the metal curtains represent.
    Billboards: My sister, Anne, and I enjoyed our one-on-one time with 
``Granddad,'' as we called Ike. Both of us recall that on completely 
separate occasions Granddad told us that he ``hated billboards.'' This 
inevitably occurred just as one of us would be driving with him in the 
area around Gettysburg, Pennsylvania where our grandparents lived in 
retirement. Billboards advertised tourist venues but, in his view, they 
marred the beauty of the landscape and cheapened that hallowed ground.
    Modern Tapestries: The design team at Gehry and Associates and the 
Eisenhower Memorial Commission has made a habit of referring to the 
metal curtains as ``tapestries,'' referencing the tradition to place 
great people and events on woven material. This may be true of the 
Middle Ages, but noteworthy modern tapestries are those in the 
Communist world. Tapestries honoring Marx, Engels and Lenin used to 
hang in Red Square; Mao Zedong could be found in Tiananmen Square; and 
Ho Chi Minh's tapestry hung from public buildings in Hanoi--to name a 
few.
    Iron Curtain: Other critics have noted that we will be putting up 
an ``Iron Curtain to Ike.'' Given this symbolism, could the proposed 
cylindrical columns also be misconstrued as symbols of missile silos?
    Fencing: Unfortunately, in the geo-political context, ``fencing'' 
has always had negative connotations. Not long after the debate on the 
Eisenhower Memorial began, a woman whose mother had survived Auschwitz 
approached me. She begged me to continue our efforts to get the 
memorial redesigned. Her mother, she told me, said the metal mesh 
scrims reminded her of the chain link fences in ``the camps.'' Three 
other people also contacted me with concerns about the same symbolic 
message.
    An Unnecessary Divide: The proposed metal curtains are to provide a 
screen that would obscure the Lyndon Baines Johnson Department of 
Education. This is a symbolic affront to one of Eisenhower's 
contemporaries and the Majority Leader of the Senate during the 
Eisenhower presidency.
    My family and I do not believe for a moment that the design team 
envisioned that these metal scrims would evoke such reactions, nor do 
we think it was intentional. The potential for an unfortunate 
interpretation or association, however, has been established. Context 
does matter, and it took this vital public debate to see the pejorative 
symbolism that some Americans could see, from the outset, in the 
design.
    Not the Memorial At All? Once the metal curtains became a 
controversy, the Eisenhower Memorial staff said in the national media 
that the so-called ``tapestries'' were ``not the memorial''--only the 
backdrop. Since these metal scrims are symbolically inappropriate and 
since they also constitute the biggest expense--not to mention the 
greatest cost of future maintenance--we believe this is another reason 
why they should be eliminated as a design element.
    Even if all the symbolic issues could be mitigated, these metal 
scrims are more suitable for a temporary exhibition than they are for a 
memorial that must last in perpetuity. Sustainability is a central goal 
in nearly every other avenue of modern life today--why shouldn't a 
memorial for the 21st century reflect this? The last few decades of 
limitless excess are over. Our 21st century challenge is to find 
simpler more elegant ways to express ourselves.
    It is easy to imagine that eighty-foot metal mesh curtains would 
require constant maintenance. Any high wind would assure that 
everything from leaves to trash could easily get caught in the metal 
gaps. It is hard to imagine that the National Park Service would be 
equipped to handle the constant cleaning, especially at the higher 
reaches of the scrims.
    Current plans for interactive technology are also unlikely to 
remain current. We continue to live in a time of technological 
revolution. Why make this story telling aspect of the memorial 
redundant before it has even been installed? There are other ways to 
tell the story of Eisenhower's life and times--a number of Eisenhower 
Legacy organizations, most specifically the Eisenhower Foundation that 
is associated with the Eisenhower Library and Museum in Abilene, 
Kansas, do an excellent job of this.
    In sum, these factors have had a significant impact on the thinking 
of many people, including my family. A redesign should be sensitive to 
the context of Eisenhower's times, and avoid any elements that could be 
misconstrued as an Iron Curtain, concentration camp chain-link fences, 
or any other negative imagery from those turbulent and dangerous times. 
Any new design should also make sustainability one of its central 
goals.

Process is critical
    The Eisenhower family has interacted with the Eisenhower Memorial 
Commission since its inception in 1999. My brother David Eisenhower was 
appointed by President Clinton to serve as the family representative on 
it. My other siblings, Anne and Mary, and I attended many meetings as 
interested parties, as well as conduits for our father John 
Eisenhower's views. He is Dwight Eisenhower's sole heir and executor of 
his will. I attach his letter for the record.
    From the Commission's earliest days we have been concerned about 
its direction and we have spoken about it forthrightly. In the 
beginning, the memorial was planned to be both a physical memorial and 
a living memorial, which was to tell the Eisenhower story and to 
enhance the educational and leadership development mission of a number 
of Eisenhower Legacy organizations. The E-Memorial, which was created 
by the Commission, sidestepped the most important of the Eisenhower 
Legacy organizations, located in such states as Pennsylvania, New York 
and Kansas. The result has been a deterioration of the Commission 
staff's relationships with the Eisenhower Legacy organizations that are 
the largest and oldest in the community. While there have been recent 
attempts to heal the breach, much work remains to be done.
    The Eisenhower family's relationship with the Commission staff is 
also more strained today than ever before--in large measure because of 
the decisions the staff made in this current debate. Unfortunately, 
they have persisted in suggesting that the Eisenhower family is not 
united on the Eisenhower Memorial design. I have tried to set the 
record straight numerous times on my website: www.susaneisenhower.com, 
but they have continued to assert otherwise. The following, then, is 
hereby entered for the record. My brother David has submitted a 
statement to, once and for all, settle the question.

                                  ***

    I served on the Eisenhower Memorial Commission from its inception 
until December of 2011 in the de-facto role of representing the 
Eisenhower family on the Dwight D. Eisenhower Memorial Commission and 
as a regular Presidential appointee whose responsibility was to work 
with his fellow commissioners to ensure that the memorialization 
process moved forward.
    During the selection process for an architect, a number of 
``jurors'' including myself supported another architectural firm and 
did not vote to select Mr. Gehry as the architect. Once the Gehry firm 
was chosen, however, I supported efforts to assure that a memorial be 
built. During my tenure, the commissioners were always assured that the 
designs were evolving, and that there was plenty of time for 
consultation.
    Recently, when Mr. Gehry was told that he could not use the 
Eisenhower images on the metal scrims, I generally supported the idea 
of a Kansas landscape. However, I did not know the details of how the 
``barefoot boy'' theme was developing and I recognized the need to be 
in full consultation with the rest of my family. Since the July 2011 
Commission meeting, when a final vote on the design was deferred, we as 
a family have discussed the design and the concept extensively. I am in 
full support of the family's decision to share our concerns with the 
public, and I endorse the family's efforts to gain a thorough review of 
the currently proposed design, including a redesign.
David Eisenhower
March 18, 2012
Berwyn Pa.

                                  ***

    When members of the Eisenhower family first saw the proposal to 
place Kansas on the metal curtains with a focus on Ike a young boy, we 
had varying responses. But as the spring of 2011 turned into the 
summer, small differences over how to proceed, turned into a unified 
sense of urgency to get the concept and design changed.
    From the outset of this memorialization process, my family has 
repeatedly expressed its desire to see something simple and in keeping 
with Eisenhower's character and values. In addition, we argued for a 
process that would accommodate a competition from range of architects 
specializing in different genres.
    When it was clear that the architectural firm, Skidmore, Ownings 
and Merrill, which is known for its modernistic approach, was chosen to 
develop the Pre-Design Architectural Program, we understood that the 
Commission was going to handle these matters in an entirely different 
way.
    We intervened behind the scenes when we discovered that the review 
process was being ``fast-tracked.'' This was a surprise to us in light 
of the fact that the July 2011 Commission meeting ended without a 
formal vote on the design concept. Chairman Siciliano declared that the 
memorial concept and design were still evolving. (To our knowledge this 
was the last full Commission meeting that has been held.) Despite our 
concerns that the memorial design was being pushed through the review 
process, we were told only that they would keep us informed. As a 
result we issued a statement in November 2011, expressing our concerns 
about the ``size, scale and scope'' of the memorial proposal.
    Today's hearing, and possibly others in the future, gives us an 
opportunity think again about how best to memorialize Dwight 
Eisenhower. There should be some specific conditions, however. The 
Eisenhower family will adamantly oppose any ground-breaking for this 
memorial that occurs before it is absolutely clear that the financing 
for the project is in place.
    Given the controversy surrounding the design and given the amount 
of private money that needs to be raised, we believe this current plan 
cannot be successfully funded. Unless a new concept and design are 
developed, this process could languish amid increasing contention. The 
public has spoken. It is time to go back to the drawing board.
    As we move forward, why not find new ways to gain the wisdom of the 
American people and ``buy in'' from the countless people who have 
expressed an interest in finding a fitting memorial to Eisenhower?
Conclusion:
    Eisenhower family is indebted to Congress for designating that an 
Eisenhower Memorial be built. The family is committed to playing its 
role in assuring that the process and the design reflect an open and 
transparent process that Ike believed was critical to the sound 
functioning of our democracy. If Eisenhower was great it was not just 
because of what he did, but also because of how he did it. Just as the 
memorial must reflect the values and principles of its subject, the 
process must emulate the man for whom the memorial is being built.
    Going forward, there needs to be a much more open response to 
stakeholder input. Stakeholders are not just members of the Eisenhower 
family, military veterans, survivors of the Holocaust and their 
families, Cold War refugees or people connected to the Eisenhower 
Administration, Eisenhower Legacy organizations--or even residents of 
Ike's home state--as important as we are. The most important 
stakeholders of all are the American people, especially rising 
generations who will be the future of this country.
    It took well more than three designs to produce the FDR Memorial we 
have today. We should not be afraid of getting this right. In 
rethinking the memorial we now have an opportunity to find ways to 
inspire visitors who will come to this place. Eisenhower led the free 
world when America became the world's greatest superpower. He brought 
the country through some of the most dangerous chapters of the 20th 
century.
    ``Eisenhower's talents,'' wrote Jonathan Tobin in Commentary, 
``were exactly what both our republic and the world needed at a moment 
when everything hung in the balance...''
    The Eisenhower Memorial can and should be a reflection, not only of 
Eisenhower's lifetime achievements, and the challenging and dangerous 
times in which he led us; it should also be anthem to our national 
purpose. As General Eisenhower said in his Guildhall address--the 
wartime victory was a common one. And he carried that humility to the 
White House. The peace and prosperity of the Eisenhower years were also 
America's success.
    The Eisenhower Memorial we leave will express not just of our 
esteem for his leadership, but it will reflect who we are as a people--
and what part of this legacy we want to leave for future generations.
                                 ______
                                 

  Responses to questions submitted for the record by Susan Eisenhower

1.  With respect to the ``E-Memorial'' concept, what was your role in 
        the grant awarded to the Eisenhower World Affairs Institute and 
        what was the product of the funding?
    The Eisenhower Institute, under my direction, was tasked to convene 
meetings with the Eisenhower Legacy Organizations (ELOs) for looking at 
ways to cooperate among ourselves on an array of programs. The 
potential for programming, which would link the institutions that 
Dwight Eisenhower or his colleagues built, became the foundation for 
the idea of a living memorial. On March 25, 2004, the Eisenhower 
Memorial Commission (EMC) passed a resolution that established both a 
physical memorial and a living one, which would benefit and utilize the 
programming of the Eisenhower Legacy Organizations. In my role, I 
helped obtain a grant from the Eisenhower Memorial Commission to the 
Eisenhower Institute for the purposes of fleshing out the details of 
what this living memorial component might look like.
    On securing the grant, I stepped down from my position at the 
Institute to assure that there would be no suggestion that I was 
personally benefitting in any way from the grant. The task of convening 
the groups and hammering out the ELO's proposal to the commission fell 
to the new director, James McCall. After considerable work, the 
proposal was submitted to the Eisenhower Memorial Commission on May 31, 
2005--with a cover letter from the Chairman of the Eisenhower Institute 
Board, General Brent Scowcroft.
    The Eisenhower Memorial Commission staff, and perhaps the 
commission's chairman, reviewed the study and apparently decided to 
reject the ELO's proposal. The EMC gave little if no encouragement to 
the legacy organizations to reconfigure their proposal--in fact a 
number of developments between the ELOs and the EMC staff led to an 
eventual collapse of this process.
    Thereafter, the Eisenhower Memorial Commission began establishing 
an E-Memorial, effectively sidelining the legacy organizations. Today, 
the ELOs--the organizations that Dwight Eisenhower or his friends and 
his cabinet established in his name--have been all but excluded from 
the E-Memorial.

2.  Do the legacy organizations have a relationship with the Eisenhower 
        Memorial Commission?
    For the last several years there has been virtually no contact 
between the Eisenhower Memorial Commission staff and the ELOs. In fact 
considerable friction has occurred because the EMC staff has been using 
the legacy organization's contacts for their own purposes. The 
atmosphere between the two groups is very negative.
    The most challenging situation is for the Eisenhower Foundation, 
founded by Dwight Eisenhower himself. Located in Abilene, Kansas, the 
organization that supports programming and exhibits at the Library is 
being revitalized. But the Memorial Commission staff has persistently 
taken steps that could potentially undermine the foundation's role with 
the Eisenhower Library and Museum.

3.  Would you describe the interaction between the organizations?
    The ELOs continue to stay in touch, though it is largely at the 
board level. Cooperative programs--since they are unfunded--occur only 
episodically. When we discovered that EMC staff was approaching 
contacts who have been long-time supporters of the ELOs, the legacy 
organizations have begun communicating with each other on this issue. 
The EMC staff has shown no sensitivity to this concern at all--and some 
staff members have been quite hostile in its dealings with these well-
established organizations.

4.  Does the Eisenhower Family have a position as to whether or not 
        private funding should be integral to the construction of the 
        memorial? Would private funding for the memorial detract from 
        other Eisenhower legacy organizations?
    The Eisenhower Family fully understands that private sector 
fundraising will be an integral part of building a memorial--and we 
support that idea. However, it is imperative that any memorial be 
feasible from a financing point of view. We are deeply concerned that 
the EMC has not given the financial piece of this project enough 
attention. As a result of our research, we think it was perhaps 
imprudent of the Eisenhower Memorial Commission to select, in 2009, the 
most expensive design of a world famous architect. The country was in 
the midst of a financial crisis and it was designated for one of the 
most difficult and costly sites in Washington.
    Factors have not changed much since then. For this reason we feel 
strongly that no groundbreaking for any Eisenhower Memorial should 
occur without all or a very significant amount of funds in hand. Given 
the controversy surrounding the design, the weight of public opinion, 
and the oft-quoted concerns of the Eisenhower Family members, it is 
impossible to image how the EMC could raise the private sector money at 
this stage that is required to build this design.
    Furthermore, the Eisenhower Family has informally talked to a 
number of architects about the costs estimates for the project. All 
believe that this Gehry design will cost considerably more than the 
$112 million the EMC estimates, thus making the feasibility of this 
project--from a financial point of view--even more questionable.

5.  Are you opposed to a modern design for the memorial?
    No. The Eisenhower Family has no specific genre in mind, but feels 
strongly that any memorial should be appropriate both conceptually and 
symbolically. The current design is neither. We also think something 
more modest would not only be far more appropriate with respect to the 
character and values of Dwight Eisenhower, it would be more affordable 
too. Perhaps a new site--in addition to a new design--should be 
considered, given these factors.

6.  Please explain to the subcommittee any additional concerns, or 
        insights your family has that were not adequately discussed at 
        the oversight hearing. Also, which misconceptions or 
        misrepresentations regarding the memorial or your position on 
        the memorial could you clarify for the committee?
    For more than ten years, members of the Eisenhower family have been 
engaged with the Eisenhower Memorial Commission. This decade of 
interaction has been tense and often discouraging. The minutes of the 
Eisenhower Memorial Commission are often misleading with respect to our 
family's position, through the drafter's choice of words.
    Furthermore, David Eisenhower, while on the architectural jury 
selection, promoted another architectural firm other than Gehry 
Partners. It was a narrow vote, and the family's choice was defeated.
    Since then, the strategy of the Commission staff has been to make 
it appear that our family is divided. The evidence for this is 
repeatedly on display in the newspaper coverage. Naturally we are 
offended by the fact that this, verifiably, comes from the commission 
staff itself. They are fully aware of the signed statements we 
furnished from all relevant members of the Eisenhower family, including 
former Commissioner David Eisenhower and our father, John S.D. 
Eisenhower, Ike's son, heir and executor of the president's will. Our 
family is united.
    It is correct to say that at one time there might have been 
differences of opinion within the family about tactics (never goals), 
but several things happened in 2011 that brought unity on all aspects 
of our approach to this design plan. The first was the unveiling of the 
``barefoot boy'' concept, and all it came to mean. The second was the 
national debt crisis in the summer. At that time, we realized that 
everything changed. Not only is the memorial's design concept 
inappropriate, but in light of the financial crisis it is publicly 
unacceptable--for its cost and for the special long-term maintenance 
that will be required, specifically for the metal scrims. Public 
opinion has borne this out. A simpler, more straight-forward design was 
always our preference, even from the start. But now, more than ever, 
the memorial should reflect the times. Something simple, yet powerful, 
was and is more appropriate.
    The Eisenhower family and the Eisenhower Memorial Commission have 
reached an impasse. On March 27, the EMC made a very strong statement 
about their unqualified support for Frank Gehry's design and vision. 
Since we have previously met with Mr. Gehry, and no meaningful changes 
have occurred, it is hard to imagine that common ground can be found.
                                 ______
                                 
    Mr. Bishop. Ms. Eisenhower, thank you for your comments. We 
will have some questions from the panel.
    I will turn to Mr. Grijalva, if you have questions, first.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Ms. Eisenhower, if I may, thank you so much for being here.
    Ms. Eisenhower. Thank you.
    Mr. Grijalva. In your statement, you stated that the family 
is committed to playing its role in assuring that the process 
and the design reflect an open and transparent process.
    Ms. Eisenhower. Yes.
    Mr. Grijalva. For the edification of myself and the 
Committee, could you please identify where the process was not 
open or transparent?
    Ms. Eisenhower. Well, this would take an exhaustive review 
of the documents. But I think that the situation that has 
appeared in the paper has not been completely accurate. Members 
of the Eisenhower family from the outset have expressed concern 
about the scope and scale of this memorial. The original idea 
was actually to put a simple statue at the Eisenhower Executive 
Office Building. This was our family preference in the 
beginning.
    And so this has evolved a great deal. To say that the 
Eisenhower family had gone along with every aspect of this 
process would not be correct, and we found it important to 
correct the record. I think you will hear from others who have 
their own views on this, so I will leave the rest of that 
question to be answered by others.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Garamendi, do you have questions?
    Mr. Garamendi. I have a couple, if I could.
    Could you just briefly summarize why the family believes 
President Eisenhower would have rejected this design?
    Ms. Eisenhower. Well, first of all, he was a very modest 
man. He would have expected something far less dramatic, far 
less--he would have wanted something on a smaller scale, I 
believe. This is an enormous thing.
    I did mention the metal scrims, which I think are really at 
the heart of the difficulty we have here. It was only until 
relatively recently that people began to focus on the size of 
these things. These metal mesh curtains are actually 80 feet 
high. This is the size of an eight-story office building. And 
everyone visiting the Memorial will be dwarfed by these 
edifices.
    I do not think he would understand it, and I do not think 
that it would appeal to him because he was well-known not to 
have much time for modern art. And as a matter of fact, my 
sister Anne and I could tell you a funny story about riding 
along in the Gettysburg countryside with him, both on different 
occasions, with Granddad saying that he hated billboards. I did 
not add billboards to my list of concerns about these metal 
mesh tapestries, but I think this would not be in keeping with 
any style he would really understand.
    Mr. Bishop. Do you or the family think there are elements 
of the Gehry design that are, for lack of a better word, 
salvageable?
    Ms. Eisenhower. I think we welcome the opportunity to talk 
to Mr. Gehry again. We had a very cordial meeting in December. 
The time frames for everybody's schedule were so constrained 
that it was extremely difficult to see him before this hearing. 
But certainly any redesign does not preclude talking to Mr. 
Gehry about being the person to do that. But I think this is to 
be determined, I think, in the coming weeks.
    Mr. Bishop. Let me ask one last question, if the family has 
a position on the funding of this Memorial. The Commission's 
testimony infers that private funding for the Memorial would 
detract from private funding of other Eisenhower legacy 
organizations. Do you have a position on that?
    Ms. Eisenhower. Yes. Mr. Chairman, in my lengthy submission 
to this committee, I went into that issue a bit. But over the 
last years--and maybe this is where I can make a comment again 
about the earlier question about openness and transparency--we 
had a much better interactive process between the Eisenhower 
Memorial Commission staff and the Eisenhower legacy 
organizations.
    This has crumbled in recent years. And I think this 
indicates that there is a lot of work to be done going forward, 
and I think this is going to require significant cooperation 
and agreement.
    Mr. Bishop. Are there other questions from the Committee?
    [No response.]
    Mr. Bishop. If not, we thank you. As I said, your written 
testimony will be, in its totality, in the record. Thank you 
for taking the time to join us here today.
    Ms. Eisenhower. Thank you again very much.
    Mr. Bishop. Now I think I have room at the panel for 
everyone else who may be there. Can I call up for the next 
panel Mr. Stephen Whitesell, who is the Regional Director of 
the National Capital Region for the Park Service in the 
Department of the Interior; Mr. William Guerin--and I hope I 
did not mispronounce that----
    Mr. Guerin. Just right.
    Mr. Bishop. OK. That was pure luck if I did--the Assistant 
Commissioner for the Office of Construction Programs in the 
Public Buildings Service with the General Services 
Administration; retired Brigadier General Carl Reddel from the 
U.S. Air Force, who is the Executive Director of the Eisenhower 
Memorial Commission; Mr. Howard Segermark, who is the Chairman 
Emeritus, Director of the National Civic Art Society; Mr. 
Rodney Mims Cook, Jr., who is the President of the National 
Monuments Foundation; and Mr. Bruce Cole, who is the Past 
Chairman of the National Endowment for the Humanities. And we 
barely got you in there.
    Once again, the same rules will apply. Your written 
testimony will appear in its entirety in the record. We ask for 
oral comments at this time to supplement that written 
testimony. Again, the clock in front of you--I hope you can all 
see it there--has the timer on it; the yellow light means you 
have a minute left. And we would ask you to stay within the 
five-minute guidelines so that we can leave this room before we 
have to be evicted from it.
    So with that, Mr. Whitesell, if we can just start from my 
left, looking down, and go down the row. Five minutes each. If 
you are prepared, we would love to hear from you.

STATEMENT OF STEPHEN E. WHITESELL, REGIONAL DIRECTOR, NATIONAL 
 CAPITAL REGION, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Whitesell. Mr. Chairman and Members of the 
Subcommittee, I appreciate the opportunity to appear before you 
today to discuss the Dwight D. Eisenhower Memorial.
    In 1999, Congress authorized the Dwight D. Eisenhower 
Memorial Commission to consider a memorial to our 34th 
President. That Commission is comprised of 12 commissioners, 
including eight Members of Congress and, previously, a member 
of the Eisenhower family.
    As a result of this Commission's work, in 2002 Congress 
authorized the Commission to establish the Eisenhower Memorial. 
Since that time, the National Park Service has worked closely 
with the Commission to establish the Memorial in accordance 
with both the authorizing legislation and the Commemorative 
Works Act.
    In our experience, the subjects of memorials can provoke 
strong emotional responses because while many may agree on the 
value of commemorating a particular person or event, they may 
not all agree on the form that commemoration should take. The 
direction provided by the Congress in the Commemorative Works 
Act has been highly beneficial in guiding decision-making by 
memorial sponsors and Federal agencies in determining both the 
location and the design of memorials.
    In the case of the Eisenhower Memorial, these Federal 
agencies are the National Park Service on behalf of the 
Department of the Interior, the National Capital Planning 
Commission, and the Commission on Fine Arts. The process is a 
rigorous and sometimes lengthy public process which can require 
multiple consultations on the selection of a site, and on the 
design of a commemorative work as the design concept undergoes 
refinement, as well as extensive environmental and historic 
preservation compliance.
    The National Park Service works closely with sponsors to 
navigate this series of studies and reviews. Ultimately, a 
memorial will be constructed only if it is approved by these 
three entities and the memorial sponsor has met qualifications 
imposed by the Commemorative Works Act for the issuance of a 
National Park Service permit to begin construction.
    In 2006, the Commission was authorized to locate the 
Memorial at Maryland and Independence Avenues, Southwest, 
between 4th and 6th Streets. A National Park Service 
environmental assessment with public involvement was released 
in June of 2006. Reviewed by the National Capital Memorial 
Advisory Commission, selection of this site was approved by the 
Commission on Fine Arts and the National Planning Commission in 
September of 2006.
    The National Park Service has continuously facilitated the 
work of the Eisenhower Memorial Commission to develop the 
design in response to input received during the public review 
and approval processes, and has worked diligently on the 
environmental and historic preservation compliance 
documentation. The Eisenhower Memorial Commission is 
responsible for the design, and addressing any concerns 
regarding the design from all sources, which includes the 
public and members of the Eisenhower family.
    In September 2011, the National Capital Memorial Advisory 
Commission was consulted on the design, and the Commission on 
Fine Arts granted conceptual approval for the overall 
configuration of the Memorial. Also in September, the National 
Park Service released a second environmental assessment for 
public review on the environmental effects of the design.
    The National Park Service executed a memorandum of 
agreement under the National Historic Preservation Act 
regarding the treatment of historic properties affected by the 
Memorial with the Eisenhower Commission, the National Capital 
Planning Commission, the General Services Administration, the 
D.C. State Historic Preservation Office, and the Advisory 
Commission on Historic Preservation.
    On March 6, 2012, the National Park Service issued its 
finding of no significant impact, which is a determination that 
the Memorial, completed as of the current schematic design, 
will not have a significant impact on the environment.
    The Memorial was scheduled to go before the National 
Capital Planning Commission on April 5, 2012, at which time the 
National Park Service and the Eisenhower Memorial Commission 
would seek preliminary design approval. On March 14, the 
Eisenhower Memorial Commission asked that this review be 
deferred in response to recent concerns about the design.
    The National Park Service is honored to play a role in the 
establishment of commemorative works in our Nation's capital. 
The process, as directed by Congress, has worked very well, and 
we expect that the Eisenhower Memorial will ultimately be a 
source of pride for our entire Nation.
    Mr. Chairman, this concludes my statements. I would be 
pleased to respond to any questions you or other members of the 
Subcommittee may have.
    [The prepared statement of Mr. Whitesell follows:]

Statement of Stephen E. Whitesell, Regional Director, National Capital 
     Region, National Park Service, U.S. Department of the Interior

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to appear before you today to discuss the Dwight D. 
Eisenhower Memorial.
    In 1999, Congress authorized the Dwight D. Eisenhower Memorial 
Commission (EMC) to consider a memorial to our 34th president and as a 
result of EMC's work, in 2002 Congress authorized the EMC to establish 
the Eisenhower Memorial. Since that time, the National Park Service 
(NPS) has worked closely with the EMC to establish the Memorial in 
accordance with both the authorizing legislation and the Commemorative 
Works Act (CWA).
    The direction provided by the Congress in the CWA has been highly 
beneficial in guiding decision-making by memorial sponsors and federal 
agencies in determining both the location and design of memorials. The 
process is a rigorous and sometimes lengthy public process, requiring 
multiple consultations and approvals on the selection of a site and on 
the design of a commemorative work, as well as extensive environmental 
and historic preservation compliance. In our experience, the subjects 
of memorials can provoke strong emotional responses, because while many 
may agree on the value of commemorating a particular person or event, 
they may not all agree on the form that commemoration should take. The 
process requires the active involvement of federal and local agencies 
and other organizations. Ultimately, a memorial may only be constructed 
if it has been considered and approved by federal commissions and the 
memorial sponsor has raised all the funds it needs to complete the 
memorial.
Agencies Involved in the Commemorative Works Process
    There are multiple agencies and organizations involved in the 
siting and approval of memorials under the CWA.
    Historically, the NPS has facilitated the entire process because 
all the memorials that have been established so far under the CWA were 
to be sited on parkland or on lands that would be transferred to the 
NPS so that the NPS would administer that memorial. The NPS works 
closely with memorial sponsors to navigate a complicated series of 
studies, reviews, design hurdles, agency approvals and environmental 
compliance. Under the CWA, the actual construction of a memorial can 
only occur after that memorial's sponsor has satisfied the requirements 
of the CWA, up to and including the obtaining the construction permit 
as issued by the NPS. The NPS has facilitated the establishment of 18 
commemorative works within the District of Columbia since the passage 
of the CWA roughly 26 years ago. These memorials include the Korean War 
Veterans Memorial, the George Mason Memorial, the World War II 
Memorial, and, most recently established, the Martin Luther King Jr. 
Memorial. The NPS is presently working with the sponsors of five new 
memorials authorized by the Congress, including the Memorial to 
American Veterans Disabled for Life, the Adams Memorial, and the Dwight 
D. Eisenhower Memorial.
    The Commission of Fine Arts (CFA) reviews site selection and design 
for each memorial and must approve both in order for the NPS to issue a 
permit for construction. The site selection process can take several 
reviews before a site is approved, and the CFA may apply design 
guidelines adopted in conjunction with the National Capital Planning 
Commission (NCPC) pursuant to the Commemorative Works Act as part of 
its review process. Design approval is completed in two stages--concept 
and final--with memorials typically requiring multiple reviews at each 
stage. The CFA reviews for approval takes place in meetings that are 
open to the public following public notice.
    NCPC must also approve the memorial site and design, and the review 
process usually occurs in parallel with the CFA. NCPC may, pursuant to 
the Commemorative Works Act, apply joint guidelines developed in 
conjunction with CFA or develop independent, mitigation-related 
guidelines as part of the National Historic Preservation Act (NHPA), 
Section 106 process, or the National Environmental Policy Act (NEPA) 
process, to guide its review and approval process. Design approval may 
also require multiple reviews, and the NCPC requires completion of 
environmental and historic preservation compliance prior to design 
reviews.
    The National Capital Memorial Advisory Commission (NCMAC), which 
has no approval authority, reviews proposed legislation and provides 
advice to Congress, makes recommendations to the Secretary of the 
Interior (Secretary) and the Administrator of General Services (GSA) 
regarding memorial proposals, and is a consulting body to the memorial 
sponsors regarding a memorial's location and design. This consultation 
for location and design must occur before the NPS can issue a 
construction permit. The NCMAC includes representatives of the NPS, the 
CFA, the NCPC, the Mayor of the District of Columbia, GSA, the American 
Battle Monuments Commission, the Architect of the Capitol, and the 
Department of Defense. This consultation, likewise, takes place in 
meetings that are open to the public and following public notice.
    The District of Columbia Historic Preservation Officer (DCSHPO) is 
consulted during both the site selection and design phases to determine 
whether the establishment of a memorial could have an effect on 
historic properties. It may be the case that a new memorial could have 
an adverse effect on such properties, which prompts notice to the 
public and consultation with interested parties, who may include 
members of the public, in accordance with Section 106 of the NHPA. This 
may result in the negotiation of a Memorandum of Agreement between the 
NPS, the DCSHPO, the memorial sponsor, and the Advisory Council on 
Historic Preservation and others to mitigate any adverse effects.
    The Secretary of the Interior grants final approval in the form of 
a construction permit after the requirements of the CWA are met. NCPC 
review and approval is also a pre-requisite to NPS issuance of the 
construction permit. The NCPC reviews for approval are also conducted 
in meetings that are open to the public following public notice. The 
GSA Administrator has the same authority to issue a permit for a 
memorial if that memorial is destined for GSA lands, although, to date, 
all memorials established under the CWA have been permitted by the 
Secretary because they were sited on NPS parklands or on lands that 
were transferred to NPS.

The Commemorative Works Process
    The memorial process often begins with a member of the public or an 
organization with an idea to honor an individual or a group, or to 
commemorate an event, with a memorial in the nation's capital. 
Statutory authorization is required to locate a memorial on lands 
covered by the CWA, and thus legislation for a memorial must be 
introduced by a member of Congress. Such legislation authorizes the 
establishment of the memorial and designates a memorial sponsor, often 
the group itself, which would be responsible for planning, design, 
fundraising, and ultimately construction of the memorial. The CWA sets 
a time limit of seven years for the memorial sponsor to obtain the NPS 
construction permit which can only be issued after the sponsor has the 
approvals and funds in hand, although that time is often extended. 
Whenever authorizing legislation or time extension legislation is 
introduced, the NCMAC reviews the proposed legislation and provides 
comments to the authorizing committee of Congress.
    When legislation for a memorial becomes law, NPS works with the 
memorial sponsor to investigate potential memorial sites on lands 
eligible for placement of new memorials. Not all federal parkland in 
the District of Columbia is available: in 2003, Congress designated an 
area including the National Mall that it called the Reserve, as a 
completed work of civic art where no additional memorials would be 
located. Often the search for the right site starts with consideration 
of the memorial's subject and whether there are certain locations 
relevant to it, using the 2001 Memorials and Museums Master Plan, a 
comprehensive study of potential sites produced by NCMAC, NCPC, CFA, 
and NPS. Such investigation typically involves the study of those sites 
with the most potential for that particular memorial, consultation with 
other agencies, the start of the environmental compliance process, and 
consultation with the DCSHPO and others. The memorial sponsor may 
submit a request to the Secretary to be authorized to consider sites in 
Area I, an area close to the National Mall, which is defined in the 
CWA. After consultation with NCMAC, if the Secretary determines that 
the memorial subject is of preeminent and lasting historical 
significance, the Secretary notifies Congress of this recommendation to 
authorize that memorial to be located at a site within Area I. 
Following Congressional approval, a site can be designated for the 
memorial in Area I. The site selection process concludes after NCMAC 
has been consulted on potential sites and the CFA and the NCPC have 
approved the preferred site.
    The sponsor's next task is to select a designer, through a design 
competition or by any other means of its choosing, and start designing 
the memorial. As the design is developed, NPS coordinates multiple 
consultation meetings with staffs of the NCPC, the CFA, and the DCSHPO. 
The NPS consults the NCMAC regarding the design prior to submission to 
the CFA and the NCPC for approvals. During the approval process, NPS, 
with the assistance of the sponsor, completes all necessary 
environmental compliance work such as under NEPA, and complies with 
NHPA Section 106 and, if necessary, NHPA Section 110. During this time, 
the memorial sponsor continues to raise the all the needed funds that 
must be available before the NPS can issue the construction permit.
    The Secretary, acting through the NPS, is authorized to issue a 
permit for construction once the following criteria are met: (1) the 
site and design have been approved by the NCPC and CFA, and NCMAC has 
been consulted; (2) knowledgeable experts have determined that the 
memorial will be structurally sound and durable; (3) construction 
documents have been submitted; (4) the memorial sponsor has sufficient 
funds to complete the memorial; and (5), in case of privately funded 
memorials, the sponsor has made a donation of 10% of the cost of 
constructing the memorial to be used for perpetual maintenance, which 
covers non-routine maintenance and catastrophic repairs.

Establishment of the Eisenhower Memorial
    The Eisenhower Memorial is tracking the process prescribed by the 
CWA, including with its own authorizing legislation. Responsibility for 
the establishment of the Eisenhower Memorial, including its program, 
design, and construction is assigned by law to the EMC. The EMC is 
comprised of twelve commissioners, including members of Congress and, 
previously, a member of the Eisenhower family. In 2006, the EMC was 
authorized to locate the memorial within Area I. The proposed site, 
located at Maryland and Independence Avenues, SW, between 4th and 6th 
Streets, was then analyzed in studies and an NPS NEPA Environmental 
Assessment (EA) with public involvement, reviewed by the NCMAC and 
approved by the CFA and NCPC in 2006.
    The NPS has continuously facilitated the work of the EMC in 
developing the design and has worked diligently on environmental and 
historic preservation compliance documentation that is required before 
NPS can issue a construction permit for the memorial. The EMC engaged 
GSA to use its Design Excellence program to select a designer for the 
Memorial, a process that culminated with the 2009 selection of Pritzker 
Prize-winning architect Frank Gehry.
    Since it was first proposed, the design for the Eisenhower Memorial 
has gone through numerous changes during the rounds of the CWA review 
process, and as input was received from a number of sources including 
the public. The EMC is responsible for the design and addressing any 
concerns regarding the design from all sources, which includes the 
public and members of the Eisenhower family.
    In September 2011, NCMAC was consulted on the design and the CFA 
granted Concept Approval for the overall configuration of the Memorial. 
Also in September, the NPS released to the public for review and 
comment, a second EA concerning the environmental effects of the 
design. Following years of consultation meetings under NHPA Section 
106, the EMC, the NCPC, the GSA, DCSHPO, the Advisory Council on 
Historic Preservation, the NPS, and others executed a Memorandum of 
Agreement regarding the treatment of historic properties affected by 
the Memorial. On March 6, 2012, the NPS issued its Finding of No 
Significant Impact (FONSI). This FONSI is a determination pursuant to 
NEPA that the memorial, if completed in accordance with the current 
schematic design, will not have a significant impact on the 
environment; it is not an approval of the memorial pursuant to the CWA.
    The project was placed on the NCPC agenda for consideration of 
Preliminary Approval at its April 5, 2012 meeting, but in response to 
recent concerns about the design of the Memorial, the EMC has requested 
that consideration of the Memorial design be deferred until NCPC's May 
5, 2012 meeting.
    Should the NCPC grant preliminary approval in May, the memorial 
design will undergo further refinement and the design will then be 
reviewed for further approvals by the CFA and the NCPC. The EMC's 
schedule calls for obtaining final approval by both Commissions later 
in 2012, and it is possible that reaching final approval will require 
further Commission reviews. The NPS will continue to work with the EMC 
to facilitate design reviews by NCPC and CFA, while conducting its own 
review of the construction drawings to ensure the structural soundness 
and durability of the memorial.
    The NPS is honored to play a role in the establishment of 
commemorative works in our nation's capital and we take very seriously 
our role and duties in the process. The process for establishing 
memorials in Washington, as directed by the Congress, has worked very 
well to ensure that new memorials are thoughtfully considered, 
appropriately located, and beautifully designed. We expect that the 
Eisenhower Memorial, by virtue of the public process by which it is 
being established, will have all of these important characteristics and 
will be a source of pride for our entire nation.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or the other members of the subcommittee 
may have.
                                 ______
                                 
    Mr. Bishop. Thank you. We appreciate it.
    Mr. Whitesell from--no, you just spoke. Thank you. Mr. 
Guerin from the GSA. Please to have you here. The same thing.
    Mr. Guerin. I will give him another chance if he wants it.

STATEMENT OF WILLIAM J. GUERIN, ASSISTANT COMMISSIONER FOR THE 
OFFICE OF CONSTRUCTION PROGRAMS, PUBLIC BUILDINGS SERVICE, U.S. 
                GENERAL SERVICES ADMINISTRATION

    Mr. Guerin. Good morning, Chairman Bishop, Ranking Member 
Grijalva, and Members of the Subcommittee. Thank you for the 
opportunity to appear before you today to discuss the proposed 
Dwight D. Eisenhower Memorial.
    GSA is honored to play a role in helping the Eisenhower 
Memorial Commission create a memorial to President Dwight D. 
Eisenhower. His long career of noble service to our country is 
and should be a source of inspiration to the American people.
    The Commission was tasked with creating an appropriate 
permanent memorial to perpetuate his memory and his 
contributions to the United States. GSA has assistance the 
Commission with issues related to the acquisition of office 
space, human resource support, financial and accounting 
services, legal and contracting support, and our role expanded 
as the Commission's vision became clearer.
    Given our experience and expertise, the Commission asked 
GSA to help select both a design firm and a construction 
contractor for the memorial. At the request of the Commission, 
we used our proven Design Excellence process to select the 
design firm. This competitive and streamlined process seeks to 
select the most qualified designers to support Federal design 
commissions.
    We seek to contract with the Nation's most talented 
architects, landscape architects, and engineers to design 
projects with outstanding quality and value. As part of this 
process, GSA utilizes the expertise of private sector peers to 
assist in the evaluation of proposals and design firms, 
ensuring that we benefit from the knowledge of a wide variety 
of individuals.
    At their request, GSA worked with the Commission to develop 
a highly qualified A/E evaluation board of 11 members from the 
Commission, GSA, the Eisenhower family, as well as private 
sector peers in a variety of design and architectural areas.
    The board used a three-stage process to make its selection. 
This included evaluating the past work of firms submitting 
proposals, then developing a short list of firms to be invited 
for interviews, and finally, reviewing proposals of detailed 
design visions for the Memorial.
    In August 2008, GSA issued a request for qualifications 
open to all design firms to submit portfolios of their work. 
There were 44 responses to this request. The panel convened, 
reviewed the submissions, and selected seven highly qualified 
firms based on the evaluation criteria outlined in the RFQ.
    The seven firms were interviewed, and from these interviews 
the panel chose four firms to submit design visions based on 
guidance provided by the panel. These four firms were: Krueck 
and Sexton Architects; Gehry Partners, LLP; Rogers Marvels 
Architects, PLLC; and PWP Landscape Architecture.
    All four firms were asked to provide a design vision for 
the Eisenhower Memorial. The vision was to be based on the site 
and urban context, the Eisenhower Memorial requirements and 
criteria, and the Eisenhower Memorial philosophy and 
aspirations.
    A jury composed of design peers and led by a professional 
competition advisor evaluated the submissions. The written 
report of findings and recommendations were submitted by the 
jury to the A/E evaluation board. The A/E evaluation board 
reviewed the jury's findings as well as design vision concepts. 
They recommended the selection of Gehry Partners as the 
architect for the Eisenhower Memorial. A contract with Gehry 
Partners was ensued, and design began in January 2010 and is 
currently in process.
    It is worth noting that approval for a memorial of this 
importance in such a prominent location is a deliberate process 
that engages a variety of consulting bodies. Any proposed 
monument or memorial to be located on Federally owned land in 
the District of Columbia must undergo a rigorous review process 
with ample opportunity for public input and involvement.
    As an agent of the EMC, GSA's role was to administer the 
process that helped select a highly qualified design firm. The 
resulting design concept itself has gone through a series of 
review processes of several Federal and local agencies and 
commissions, which included the opportunity for public review 
and comment.
    In addition to providing staff and support services on a 
reimbursable basis in administering the selection of a design 
firm for the Memorial, GSA is involved in a few other ongoing 
activities of the Commission. For example, the Commission 
requested our assistance in administering the construction 
contract.
    We are also working in partnership with the National Park 
Service to provide a portion of the land that will eventually 
house the Memorial itself. We have been and continue to stand 
by to assist with other issues as they may arrive when the 
project moves forward.
    In conclusion, Mr. Chairman, GSA is proud of our efforts to 
assist the Commission in memorializing President Eisenhower. 
Whether through staff and support services, administering 
design and construction contracts, or providing land upon which 
to build, GSA looks forward to assisting in bringing this 
project to fruition.
    Thank you for the opportunity to appear today before you, 
and I welcome any questions you might have.
    [The prepared statement of Mr. Guerin follows:]

 Statement of William J. Guerin, Assistant Commissioner for the Office 
   of Construction Programs, Public Buildings Service, U.S. General 
                        Services Administration

    Good morning Chairman Bishop, Ranking Member Grijalva, and members 
of the Subcommittee. My name is Bill Guerin, and I am the Assistant 
Commissioner for the Office of Construction Programs at the U.S. 
General Services Administration's (GSA) Public Buildings Service (PBS). 
Thank you for the opportunity to appear before you today to discuss the 
proposed Dwight D. Eisenhower Memorial.
    GSA is honored to play a role in helping the Eisenhower Memorial 
Commission (EMC) to create a memorial to President Dwight D. 
Eisenhower. His long career of noble service to our country is and 
should be a source of inspiration to the American people.

Establishing the Commission -
    The EMC was created in statute on October 25, 1999, and tasked with 
creating ``an appropriate permanent memorial to Dwight D. Eisenhower [. 
. .] to perpetuate his memory and his contributions to the United 
States.'' \1\ Further, Public Law 110-229 directed that ``[t]he 
Commission shall obtain administrative and support services from the 
General Services Administration on a reimbursable basis. The Commission 
may use all contracts, schedules, and acquisition vehicles allowed to 
external clients through the General Services Administration.'' \2\
---------------------------------------------------------------------------
    \1\ Public Law 106-79
    \2\ Public Law 110-229
---------------------------------------------------------------------------
    Pursuant to Public Law 110-229, GSA has assisted the EMC with 
issues related to the acquisition of office space, human resources and 
payroll services, financial and accounting services, and legal and 
contracting support. The role of GSA also expanded as the Commission's 
vision became clearer and the time approached for the selection of a 
design firm. Given our experience and expertise, the EMC asked GSA to 
assist in selecting both a design firm and a construction contractor 
for the Memorial. To select the design firm, GSA, at the request of the 
EMC, used our established and proven Design Excellence process.

Design Excellence -
    GSA's Design Excellence process seeks to commission the nation's 
most talented architects, landscape architects, and engineers to design 
projects of outstanding quality and value. We use the Design Excellence 
process to select Architect/Engineer firms for our new construction and 
major modernization projects. These projects aim to demonstrate the 
value of truly integrated design that balances aesthetics, function, 
cost, constructability, reliability, reduced energy consumption, and 
gives form and meaning to our democratic values.
    The Design Excellence program provides a competitive and 
streamlined process for identifying qualified firms, and then asking a 
short list of highly qualified firms for design proposals that allow us 
to select the firm representing the best value to the government. As 
part of this process, GSA utilizes the expertise of private sector 
peers to assist in evaluating the firms, ensuring that we benefit from 
the knowledge of a wide variety of individuals.

Selection of a Design Firm for the Eisenhower Memorial -
    For the Eisenhower Memorial, at the request of the EMC, GSA worked 
with the EMC to develop a highly qualified A/E Evaluation Board of 12 
members from the Commission, GSA, the Eisenhower family, and private 
sector design peers in the disciplines of architecture, landscape 
architecture, urban design, lighting design, information exhibit/
design, as well as an architectural critic.
    The Board employed a three-stage process to make its selection. In 
Stage I, the interested firms submitted portfolios of past work that 
established their qualifications and capabilities. Based on this, the 
Board established a short-list of firms that advanced to Stage II. In 
Stage II, these firms were interviewed after submission of a 
preliminary vision. In Stage III, selected designers from Stage II were 
asked to submit a detailed design vision for the memorial.
    On August 15, 2008, GSA issued a Request for Qualifications (RFQ) 
for design firms to submit portfolios of their work. There were 44 
responses to this request. The panel convened in October of 2008 to 
review these submissions and selected seven highly qualified firms 
based on the evaluation criteria outlined in the RFQ: Lead Designer 
Portfolio, Philosophy and Design Intent, Past Performance on Design, 
and Lead Designer Profile. In December of 2008, the selection panel 
convened to interview these seven firms. The evaluation criteria for 
Stage II were: Professional Qualifications and Specialized Experience 
of Key Personnel, Team Design Performance with Consultants, Team 
Organization and Management Plan, Preliminary Site and Program 
Analysis, Geographic Location, and Subcontracting Plan. From those 
interviews, the panel chose four firms to submit design visions based 
on guidance provided by the panel. These four firms were Krueck & 
Sexton Architects; Gehry Partners, LLP; Rogers Marvels Architects, 
PLLC; and PWP Landscape Architecture.
    All four firms were asked to provide a Design Vision for the 
project based on the site and urban context, Eisenhower Memorial 
requirements and criteria, and the Eisenhower Memorial philosophy and 
aspirations. Each competing firm was given 45 days to respond. In March 
2009, a jury composed of design peers evaluated the quality, 
originality, and appropriateness of the Design Visions. The jury 
composed a written report containing its findings and recommendations.
    The A/E Evaluation Board received this report and was briefed on 
the jury's findings. The Board then independently evaluated the Design 
Vision concepts. The scores from the Stage II interviews and the Stage 
III Design Vision Competition constituted the final overall scoring, 
and the Board recommended that Gehry Partners be selected as the 
architect. The Selection Official then concurred with this 
recommendation of the Board and selected Gehry Partners.
    From March 2009 through January 2010, GSA negotiated a scope of 
work and on January 8, 2010, a design contract with Gehry Partners was 
signed.
    Since that time, Gehry Partners has worked on the design of the 
memorial and the design is currently in process.

Memorial Approval Process -
    It is worth noting that the process for approving such an important 
memorial in such a prominent location by necessity is a deliberate 
process that engages a variety of consulting bodies. While GSA 
administered the process that helped select a highly qualified design 
firm, the actual concept itself must go through review processes of 
several Federal and local agencies which include the opportunity for 
public review and comment. Per the Commemorative Works Act, the 
National Park Service (NPS) is generally the sponsoring agency that 
facilitates these processes.
    All memorials proposed to be placed on GSA or NPS lands in the 
District of Columbia are initially reviewed by the National Capital 
Memorial Advisory Commission (NCMAC), established under the 
Commemorative Works Act of 1986, which holds public meetings a minimum 
of two times per year. NCMAC reviews proposed locations and designs for 
memorials and recommends to the Secretary of the Interior or the 
Administrator of GSA, as appropriate, the location of the memorial.
    Once the actual design of a memorial commences, it is subject to 
review by the Commission of Fine Arts (CFA) and the National Capital 
Planning Commission (NCPC). CFA and NCPC are required to review the 
proposed memorial in accordance with review criteria contained in the 
Commemorative Works Act. As part of the NCPC and CFA review process, a 
project has to comply with the National Environmental Policy Act (NEPA) 
and the National Historic Preservation Act (NHPA). CFA and NCPC both 
hold meetings open to the public on a monthly basis, and they review 
projects through several design phases. NEPA mandates that all 
potentially adverse impacts a project could have on the natural and 
man-made environment must be considered, while NHPA requires that any 
potentially negative impacts a project may have on historic sites 
nearby must be mitigated. The District of Columbia State Historic 
Preservation Officer must sign off on whatever mitigation measures are 
proposed.
    In sum, any proposed monument or memorial to be located on 
federally owned land under the custody and accountability of NPS or GSA 
in the District of Columbia must undergo a rigorous review process with 
ample opportunity for public input and involvement. This process is 
ongoing and GSA, by virtue of our management of the design contract for 
the Memorial, has provided information as requested.

GSA's Other Activities with EMC -
    In addition to providing staff and support services on a 
reimbursable basis and administering the selection of a design firm for 
the Memorial, GSA also is involved with a few other ongoing activities 
of the EMC.
    Beyond assisting in the selection of the design firm, EMC also has 
asked for our assistance in administering the construction contract. 
GSA is using a two-stage source selection process. In Stage 1, 
potential offerors will provide information regarding their technical 
qualifications. We will evaluate these submissions to identify offerors 
with the potential to be viable competitors. In Stage II, a Request for 
Proposals (RFP) will be issued to viable competitors identified in 
Stage I, though non-viable competitors are still allowed to participate 
if they choose. The RFP will include construction documents and will 
request additional technical information and pricing. These proposals 
will be evaluated by a Source Selection Board and a report will be 
issued to the Source Selection Authority for award.
    The RFQ was posted on Federal Business Opportunities (fbo.gov) on 
March 6, 2012, and we plan to identify viable competitors this summer.
    We are also working in partnership with the NPS to provide a 
portion of the land that will eventually house the Memorial itself. 
Public Law 109-220 authorized the EMC to consider sites for the 
memorial within certain areas of the District of Columbia. The site 
selection was conducted in consultation with affected agencies 
including GSA, the U.S. Department of Education, and the District of 
Columbia. The CFA and the NCPC approved the site for the Eisenhower 
Memorial in 2006.
    GSA is currently working to report a portion of this site as excess 
so that NPS can acquire it and facilitate the full assemblage of the 
site for the memorial. In addition to these efforts, GSA is happy to 
assist with any other issues that may arise as the project moves 
forward.

Conclusion -
    In conclusion, Mr. Chairman, GSA is proud of our efforts to assist 
the EMC in its charge of memorializing President Eisenhower. Whether 
through staff and support services, administering design and 
construction contracts, or providing land upon which to build, GSA 
looks forward to assisting in bringing this project to fruition.
    Thank you for the opportunity to appear before you today and I 
welcome any questions you may have.
                                 ______
                                 

            Response to questions submitted for the record 
                 by the General Services Administration

1.  In what ways did the Eisenhower Memorial competition differ from 
        the standard Design Excellence Program Competitions? In 
        particular, what is the significance of the fact that the 
        evaluation panel included two members of the Eisenhower 
        Memorial Commission--namely, Chairman Rocco Siciliano and David 
        Eisenhower?
    GSA uses the Design Excellence Program to select Architect/Engineer 
(A/E) firms for our new construction and major modernization projects. 
GSA's Design Excellence Program is in accordance with FAR subpart 36.6. 
While 36.6 does not have the explicit steps and procedures used in the 
Design Excellence Program, under FAR 1.102(d), GSA is granted 
flexibility to be innovative in our methods of procuring A/E services:
        FAR 1.102(d) states ``In exercising initiative, Government 
        members of the Acquisition Team may assume if a specific 
        strategy, practice, policy or procedure is in the best 
        interests of the Government and is not addressed in the FAR, 
        nor prohibited by law (statute or case law), Executive order or 
        other regulation, that the strategy, practice, policy or 
        procedure is a permissible exercise of authority.''
    The Design Excellence Program is a structured approach to the 
Brooks Act selection process, and is the center for GSA's advocacy of 
quality in the Federal built environment. It establishes nationwide 
policies and procedures for selecting the finest and most appropriate 
architects and integrated design teams for GSA commissions. The program 
also implements rigorous assessment processes to ensure enduring value 
in that work. Operating under the Design Excellence umbrella, Interior 
Design, Lease Construction, and Sustainability sub-programs review 
projects for superior performance in their respective disciplines.
    The Design Excellence Program manages national peers, distinguished 
private-sector design professionals appointed by the Commissioner of 
the Public Buildings Service (PBS), to advise procurement and to 
critique concept designs under development. Exhibits and other events, 
publications, and videos underwritten by the program document the 
Design Excellence Program. More information on the Design Excellence 
Program can be found at: www.gsa.gov/designexcellence.
    Pursuant to Public Law 110-229, GSA has assisted the Eisenhower 
Memorial Commission (EMC) with issues related to the acquisition of 
office space, human resources and payroll services, financial and 
accounting services, and legal and contracting support. Given our 
experience and expertise, the EMC asked GSA to assist in selecting both 
a design firm and a construction contractor for the Memorial through 
our established and proven Design Excellence Program.
    The process used for the Eisenhower Memorial was similar to the 
process used in a Design Excellence A/E selection, with the difference 
being the make-up of the evaluation board. In a typical Design 
Excellence A/E procurement for a Federal building project, the A/E 
board is evaluating proposals based on a more requirements specific 
program (e.g. defined building type or square footage), within a 
narrower set of defined disciplines. GSA uses an evaluation board 
consisting of five members, including four government employees and one 
private sector peer, with most members on the board having experience 
in making these types of selections. This is different from the context 
of the memorial selection process where the program is more wide open 
and there are potentially more relevant disciplines and perspectives to 
include.
    GSA worked with the EMC, at their request, to develop a highly 
qualified A/E evaluation board of 12 members from the Commission, GSA, 
the Eisenhower family, and private sector design peers in the 
disciplines of architecture, landscape architecture, urban design, 
lighting design, information exhibit/design, as well as an 
architectural critic. In addition, Chairman Rocco Siciliano and David 
Eisenhower served as client representatives, as is standard procedure 
for all A/E selection panels.

2.  What procedures were taken to prevent undue influence in the 
        competition, especially regarding Chairman Rocco Siciliano's 
        previous professional relationship with and statements 
        regarding Frank Gehry?
    The Design Excellence Program provides a competitive and 
streamlined process for identifying qualified firms, and then asking a 
short list of highly qualified firms for design proposals that allow us 
to select the firm representing the best value to the government. As 
part of this process, GSA utilizes the expertise of private sector 
peers to assist in evaluating the firms, ensuring that we benefit from 
the knowledge of a wide variety of individuals.
    For the Eisenhower Memorial, at the request of the EMC, GSA worked 
with the EMC to develop a highly qualified A/E evaluation board of 12 
members from the Commission, GSA, the Eisenhower family, and private 
sector design peers in the disciplines of architecture, landscape 
architecture, urban design, lighting design, information exhibit/
design, as well as an architectural critic. All Source Selection 
Evaluation Board participants (voting and non-voting technical 
advisers) were required to sign and submit a Conflict of Interest 
Acknowledgement and Non-disclosure Agreement.
    In accordance with the FAR, the evaluation board employed a three-
stage evaluation process to make its selection, and using a consensus 
process they ranked the qualifications against the established 
evaluation criteria. Once the ranking was approved, the contracting 
officer commenced price negations with the highest ranked firm and 
awarded the contract upon negotiation of a fair and reasonable price.

3.  In what ways did the Eisenhower Memorial competition differ from 
        the initial Design Excellence Program competition for the 
        National World War II Memorial, a competition that was later 
        scrapped for an open competition:
    Both the Eisenhower Memorial and the National World War II Memorial 
competitions followed Design Excellence and FAR 36.601-2 procedures.
    The National World War II Memorial design acquisition began as a 
GSA Design Excellence two-stage process. In response to concerns that 
university students would not be allowed to enter submissions, the 
process was modified so that the first stage would be a vision 
competition open to all U.S. citizens 18 years or older. This allowed 
for open competition similar to that of the Vietnam Memorial. The 
vision competition resulted in six finalists who were required to team 
up with a licensed A/E firm to develop their second stage proposal. The 
award was made to the most qualified team at a fair and reasonable 
price.
    For the Eisenhower Memorial, the evaluation board employed a three-
stage process. In Stage I, a Request for Qualifications (RFQ) of Lead 
Designers and A/E Firms interested in contracting for this work was 
announced. Interested firms submitted portfolios of accomplishment that 
established the design capabilities of the Lead Designer and the 
associated A/E Firm. Based on this, the evaluation board established a 
short-list of four Lead Design and A/E teams that advanced to Stage II.
    In Stage II, the four teams were asked to submit a preliminary 
design vision for the project based on the site and urban context, 
Eisenhower Memorial requirements and criteria, and the Eisenhower 
Memorial philosophy and aspirations within 45 days. The teams were then 
interviewed. During these interviews the Lead Designer presented the 
preliminary design vision and the A/E firm addressed the contractual 
relationship with the Lead Designer and project team.
    In Stage III, the selected Lead Designers and A/E teams were asked 
to submit a detailed design vision for the memorial. Using a consensus 
process the evaluation board ranked the qualifications against the 
established evaluation criteria. Once the ranking was approved, the 
contracting officer commenced price negations with the most highly 
qualified A/E team with whom it negotiated a fair and reasonable price.

4.  Was the Design Excellence Program ever intended to be used for 
        monuments and memorials, as opposed to federal office buildings 
        and courthouses?
    The GSA Design Excellence Program is not limited to a specific 
building type or structure. Given our experience and established 
expertise, the EMC asked GSA to assist in selecting both a design firm 
and a construction contractor for the Memorial. At the request of the 
EMC, GSA used our proven Design Excellence Program to select the design 
firm.

5.  In what instances has the Design Excellence Program been used for 
        monuments and memorials? Given that an undergraduate student 
        artist was selected to design the Vietnam Veterans Memorial, is 
        it not the case that one need not be an architect to design a 
        national monument or memorial? If so, is it correct that the 
        Brooks Act--which covers only the selection of architects and 
        engineers for federal projects--need not apply to a design 
        competition for the Eisenhower Memorial?
   Has the Design Excellence Program been used for previous memorials?
    To the best of our knowledge, the WWII memorial competition 
process, described above, is the only other memorial design selection 
process that was managed by GSA. FAR subpart 36.602-1(b)(1) references 
the use of a design competition as an aspect of the process when 
evaluating for a prestige project, such as the design of a monument or 
memorial.
   Does one need to be an architect to design a national monument?
    No, the winner of a design competition need not be a professional 
designer. However, professional designers are required to complete 
selected designs and see them through to a successful construction. For 
this reason, the design contract for the construction documents is 
awarded to a licensed architecture or engineering professional or firm 
capable of signing off on construction documents. Under FAR 36.601-4(b) 
the contract for design services must be awarded to an individual, 
partnership, corporation, association or other legal entity permitted 
by law to practice the professions of architecture or engineering.
    In the case of the Vietnam Veterans Memorial, Maya Lin was selected 
as the winner of a design competition held by the Vietnam Veterans 
Memorial Fund, a private foundation. Ms. Lin consulted with Cooper-
Leeky Partnership to complete the design documents and construction of 
the Memorial.
   Did the Brooks Act need to apply to the EMC competition?
    Yes. For a traditional design-bid-build project, the Brooks Act 
applies to the procurement of the architect/engineer for design 
services. Under FAR 36.601-4(b) the contract for design services must 
be awarded to any individual, partnership, corporation, association or 
other legal entity permitted by law to practice the professions of 
architecture or engineering.
    Indeed, the particulars of the specific monument would be important 
in selecting the right method. Given the complexity of the EMC site, 
especially its close proximity to Federal buildings, its proximity to 
the Capitol, and the notion of a public square, the site presented 
unique challenges and constraints that a highly qualified design firm 
would need to address.
    At the request of the EMC, GSA used our proven Design Excellence 
Program to select the design firm.

6.  Was the Eisenhower Memorial competition limited to licensed 
        architects? Could the following kinds of persons have entered 
        the competition: sculptors, artists, amateur architects, 
        unlicensed architects, student architects? Some have said this 
        was not an open competition. Does the GSA disagree, and why?
    This was a Request for Qualifications (RFQ) of Lead Designers and 
A/E Firms interested in contracting for this work. The Lead Designer is 
the individual or design studio (team of designers within the A/E 
design firm) who will have primary responsibility to conceive the 
design concept and the memorial's architecture. The A/E Firm as used in 
this RFQ means an individual, firm, partnership, corporation, 
association, or other legal entity permitted by law to practice the 
profession of architecture, landscape architecture, or engineering that 
will have contractual responsibility for the project design.
    The EMC consulted with GSA on approaches that could be used to 
select the design firm. The EMC and GSA discussed using a publicly 
posted, qualifications-based process versus an open process, however 
given the complexity of the site, especially the close proximity to 
Federal buildings, proximity to the Capitol, and the notion of a public 
square presented some unique challenges that a highly qualified design 
firm would need to address. The Commission ultimately chose to use a 
publicly posted, qualifications-based process. In either instance, GSA 
would have relied on an evaluation board that contained Commission 
Members, GSA officials, and private sector peer experts.
    Stage I was open to Lead Designers and their associated A/E Firm. 
The Lead Designer was not required to be a design professional.

7.  The Eisenhower Memorial Request for Qualifications was announced on 
        August 15, 2008. Stage one of the competition was completed in 
        October 2008. How much time was available for potential 
        entrants to learn of the RFQ and submit entries? Given that 
        this project is of national importance and is of a nature 
        significantly different from federal office buildings and court 
        houses, do you believe that there was sufficient time for 
        potential entrants to learn of the RFQ and submit entries?
    The RFQ was announced on FedBizOpps on August 15, 2008 and the 
stage 1 portfolios were due to GSA on October 8, 2008. This allowed 55 
calendar days for potential entrants to learn of the RFQ and submit 
entries, which was more than the standard 30 days usually allowed for 
potential entrants on other Design Excellence RFQ's.

8.  How does the time allotted for competition entries to have been 
        submitted compare with the time allotted for entries in 
        competitions for national monuments and memorials over the past 
        30 years?
    Potential entrants were allotted 55 calendar days to submit entries 
for the Eisenhower Memorial competition. This was not only more than 
the typical time frame allotted for other GSA design competitions 
entries since moving to expanded competitions, but also more than the 
minimum standard of 30 days for other non-GSA competitions.

9.  How does the advertising for the Eisenhower Memorial competition 
        compare with the advertising of competitions for national 
        monuments and memorials over the past 30 years? Are you aware 
        of how much money from the Fiscal Year 2012 appropriation to 
        the commission is spent? What are the obligations from the 
        existing contracts if they are cancelled?
   How does the advertising for the Eisenhower Memorial competition 
        compare with the advertising of competitions for national 
        monuments and memorials over the past 30 years?
    Potential entrants were allotted 55 calendar days from when the 
competition was announced to submit entries for the Eisenhower Memorial 
competition. This is a fairly typical time frame.
    For example, the initial announcement for Stage 1 of the National 
World War II Memorial was open for 60 days. Most recently, the Trust 
for the National Mall held a three-stage design competition and allowed 
42 days for potential entrants to submit entries for stage 1.
   Are you aware of how much money from the Fiscal Year 2012 
        appropriation to the commission is spent? What are the 
        obligations from the existing contracts if they are cancelled?
    For Fiscal Year 2012, the EMC received approximately $33 million in 
appropriations, of which $1.3 million was provided to GSA in 
Reimbursable Work Authorizations (RWA). Currently, GSA has obligated $1 
million of that funding, but has not yet processed any respective 
payments.
    In total, the EMC has provided GSA with about $18 million in 
funding through RWAs, of which GSA has obligated almost $15 million and 
paid out approximately $10 million. If GSA were to cancel the existing 
contracts, we would be obligated to pay the remaining $5 million.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Guerin. I appreciate that.
    We will next turn to General Reddel, who is the Executive 
Director of the Commission, once again for five minutes, if 
possible. Thank you.

STATEMENT OF BRIG. GEN. CARL W. REDDEL, USAF (RET.), EXECUTIVE 
       DIRECTOR, DWIGHT D. EISENHOWER MEMORIAL COMMISSION

    General Reddel. Chairman Bishop, Ranking Member Grijalva, 
Members of the Subcommittee, thank you for inviting me to be 
here today.
    Before I begin my testimony, I would like to point out the 
presence of three technical experts in the hearing room in the 
event you wish to draw on their expertise: Dr. Daun van Ee, 
recently of the Library of Congress, who is an expert on 
Eisenhower and co-editor of the Eisenhower papers; Professor 
Richard Striner of Washington College, who is an expert on the 
presidency and historic preservation; and Executive Architect 
Daniel Feil for questions with regard to the Commission's 
liaison with GSA, which you just heard about, on contract 
design and construction of the Memorial.
    It is a privilege to be here, for a number of reasons. 
Formerly of the United States Air Force, now Executive Director 
of the Eisenhower Memorial Commission, I would like to 
introduce three Commissioners who are with us today: 
Commissioner Boswell, who you recently just heard from, Member 
of the House, of course; and Commissioners Alfred Geduldig, 
seated behind me, and Susan Banes Harris, who were appointed by 
the President.
    Our other Commissioners, your congressional colleagues, are 
Senator Daniel Inouye, Senator Pat Roberts, Senator Jack Reed, 
Senator Jerry More then, Representative Mac Thornberry, 
Representative Mike Simpson, and Representative Sanford Bishop. 
Our Chairman is Rocco Siciliano.
    I understand that the purpose of this hearing is to discuss 
the Eisenhower Memorial. While some may be here to express a 
design point of view which may be legitimately different from 
the Commission's viewpoint, I am here to answer your questions 
about the memorialization process to the best of my ability and 
to demonstrate what the proposed Memorial is and what it is 
not.
    In my extended statement for the record, you will see how 
we have worked with Congress and numerous government agencies, 
such as the National Park Service, GSA, NCPC, the Commission on 
Fine Arts, the District of Columbia, and many others.
    Since the passage of the legislation establishing the 
Commission, the memorial designer has been bound by law to 
memorialize both the 34th President of the United States and 
the Supreme Commander of the Allied Forces in World War II. I 
would like to direct your attention to four images that will 
appear on the screens in front of you. These are the central 
focal points of the Memorial, represented by the two dominant 
sculptural elements in the Memorial, monumental, heroic-sized 
stone blocks with realistic bas relief images from two of the 
most famous photographs ever taken of Eisenhower.
    The first image, which you see here, is a photo taken on 
the eve of D-Day, when General Eisenhower went to speak to the 
101st Airborne, believing that the Division will incur severe 
and heavy casualties on the following day. President Eisenhower 
then later chose to send the 101st Airborne to Little Rock, 
Arkansas to enforce the desegregation of schools.
    The second stone bas relief image, which you see here, 
comes from a portrait taken by Yousuf Karsh called, ``The Elder 
Statesman,'' which shows President Eisenhower with his hand on 
the globe. This represents his position as the most 
international of all presidents, and how he presided over the 
ascent of the United States into becoming a global power.
    These images are the leading contenders, not necessarily 
the final selections which will be made by our 12-member 
congressional commission, and must be approved by the 
Commission of Fine Arts and the National Capital Planning 
Commission.
    In the center, on or near a lower wall, will stand the 
Eisenhower sculpture, which you see here. It is in a small 
circle. I am not sure you can see that. We will attempt to 
point it out right--the screen does not pick it up. I apologize 
for that.
    This sculpture is yet to be determined in terms of 
Eisenhower's depreciation and age. Frank Gehry addresses this 
in his letter for the record to the Chairman and the Ranking 
Member. It has never been a barefoot boy. That term comes from 
Eisenhower's own words in his homecoming speech in Abilene, 
Kansas in 1945, when he began his speech with this sentence, 
and I quote: ``Because no man is really a man who has lost out 
of himself all of the boy, I want to speak first of the dreams 
of a barefoot boy.''
    The designer's vision is that a young Eisenhower will be 
looking out at what he is to become, a great general and a 
great president. These monumental, heroic-sized images of 
General and President Eisenhower in Eisenhower Square will be 
framed, as you see here, by three transparent 65-foot-tall 
stainless steel tapestries depicting a Great Plains landscape 
of Kansas, artistically rendered as you see here.
    This will be the only national Presidential memorial placed 
in a very difficult urban park setting, but this is a superb 
site surrounded by institutions directly related to 
Eisenhower's presidency, and will be directly accessible to 
millions of visitors.
    How did we get here? As the former Professor and Head of 
the Department of History at the United States Air Force 
Academy, I have come to believe that over the 11 years the 
Commission has been working on this memorial, that the public 
interest and support for the memorialization that the 
Commission has enjoyed is based on the increasing public and 
professional knowledge of the depth, breadth, and diversity of 
the Eisenhower legacy.
    My personal interest and professional involvement with the 
Eisenhower legacy go back to my service in the United States 
Air Force. From the beginning of the Commission's work in 2001, 
we have been directly involved with the best possible expertise 
on either, such as the scholars at Johns Hopkins University who 
carried out the publication of 21 volumes of papers of 
Eisenhower. One of those editors, Daun van Ee, is with us 
today.
    My colleagues and I are a small staff of eight people. We 
partner with General Services Administration to accomplish much 
of our work. From the beginning, we have been transparent, 
public, and legally bound by Federal law. In the design process 
over the past two years, we have been the subject of 23 public 
review meetings, listed in my statement for the record, open to 
all constituencies and members of the public, as a result of 
which we have incorporated a wide range of design suggestions 
and inputs. This meeting today will be No. 24 over the past two 
years, averaging one a month.
    This careful, deliberative process has been underway for 
each phase of our work during the past 11 years, a matter you 
can judge for yourself by reading the online version of the 
minutes of our 15 Commission meetings that we have held.
    How are we funded? When the Commission began its work, it 
was----
    Mr. Bishop. General, can I ask you to quickly sum up here?
    General Reddel. Sure.
    Mr. Bishop. The red light is showing, for a while.
    General Reddel. OK. Thank you very much.
    We have benefitted from the Eisenhower family participation 
in our 15 Commission meetings over the years, especially from 
David Eisenhower as a Commissioner for more than 10. His family 
insights, scholarly historical knowledge, and contributions to 
the evolving design process were important.
    Since David resigned his position as Commissioner in 
December 2011, one of our Commissioners from Kansas, Senator 
Pat Roberts, as a member of the Commission's Executive 
Committee, has engaged in conversations with Susan and Anne 
Eisenhower to help ensure complete understanding of their 
views, and to explore creative ways to respond positively to 
their concerns. We encourage and support Senator Roberts in his 
efforts, and Congressman Boswell, also a member of that 
Executive Committee.
    May I close by complimenting you on bringing attention, 
very important for our country, to revisit some of our most 
important roots. General and President Eisenhower was of 
immense importance in our transition from the 20th to the 21st 
century. Now, at the beginning of the 21st century, we are 
asking ourselves, how do we remain true to ourself and its 
founding promises to secure liberty and freedom for all.
    The proposed National Eisenhower Memorial should be part of 
the answer for part of the young and the old who will visit the 
site. Thank you.
    [The prepared statement of General Reddel follows:]

         Statement of Brig. Gen. Carl W. Reddel, USAF (Ret.), 
      Executive Director, Dwight D. Eisenhower Memorial Commission

Table of Contents
About the Eisenhower Memorial Commission . . . . . p. 1
Senior Leadership . . . . . p. 2
Commission Staff . . . . . p. 2
Site Selection . . . . . p. 2
Selection of Frank Gehry and the Preferred Design Concept . . . . . p. 
        3
Memorial Design Phase: 2010-2012 . . . . . p. 4
Description of the Memorial Design . . . . . p. 5
E-Memorial . . . . . p. 6
Federal Contracting and Oversight . . . . . p. 7
Funding . . . . . p. 7
Conclusion . . . . . p. 8
List of Appended Documents . . . . . p. 8
About the Eisenhower Memorial Commission (EMC)
    The Dwight D. Eisenhower Memorial Commission is a bipartisan 
Commission created by Congress. It is charged with establishing a 
national, permanent memorial to Dwight D. Eisenhower to perpetuate his 
memory and his contributions, specifically his service as Supreme 
Commander of Allied Forces in World War II and as 34th U.S. President. 
This memorial will be of the highest caliber, joining other Washington, 
D.C. landmarks such as the Washington, Jefferson, Lincoln, Roosevelt 
and World War II Memorials. It will honor Eisenhower's memory and 
celebrate his achievements, inspiring and educating all who visit. All 
of the Commission's activities contribute to realizing this goal.
    As a result of the efforts of two World War II combat-decorated 
veterans, Senator Daniel K. Inouye and Senator Ted Stevens, the 
Commission was created on October 25, 1999 by Public Law 106-79. As 
amended, the law states, ``The Commission may establish a permanent 
memorial to Dwight D. Eisenhower on land under the jurisdiction of the 
Secretary of the Interior in the District of Columbia....''
    The Commission consists of twelve members, including eight Members 
of Congress.
Appointed by the President:
    <bullet>  Rocco C. Siciliano, Chairman (Beverly Hills, CA)
    <bullet>  Alfred Geduldig (New York, NY)
    <bullet>  Susan Banes Harris (Potomac, MD)
    <bullet>  Vacant (Previously filled by David Eisenhower, 2001-2011)
Appointed by the President Pro Tempore of the Senate
    <bullet>  Daniel K. Inouye, Vice Chairman (D/Hawaii)
    <bullet>  Jack Reed (D/Rhode Island)
    <bullet>  Pat Roberts (R/Kansas)
    <bullet>  Jerry Moran (R/Kansas)
Appointed by the Speaker of the House:
    <bullet>  William (Mac) Thornberry (R/Texas)
    <bullet>  Leonard L. Boswell (D/Iowa)
    <bullet>  Michael Simpson (R/Idaho)
    <bullet>  Sanford Bishop, Jr. (D/Georgia)
    These Commissioners, from New York to California, Rhode Island to 
Texas, and of course from Kansas, are charged with carrying out the 
mission to construct the memorial.

Senior Leadership
    Chairman Rocco Siciliano is a World War II combat-decorated 
infantry veteran who served as Special Assistant to President 
Eisenhower for Personnel Management.
    Vice Chairman Senator Daniel K. Inouye is a World War II Medal of 
Honor recipient for valor and has continuously represented Hawaii in 
the United States Congress since President Eisenhower signed its 
statehood into law in 1959.

Commission Staff
    Executive Director Brig. Gen. Carl Reddel, USAF (Ret.), served as 
President and CEO of the Eisenhower World Affairs Institute (EWAI) 
following his retirement from the United States Air Force, where among 
other responsibilities he was a Professor and Head of the Department of 
History at the United States Air Force Academy. Gen. Reddel joined the 
Commission in June 2001.
    The Commission is staffed by seven full-time temporary federal 
employees in accordance with legislation passed in May 2008 (P.L. 110-
229). Brig. Gen. Reddel, the Commission's Executive Director, leads the 
core staff and one full-time contract consultant, the Commission's 
Executive Architect.

Site Selection
    In 2005, the Eisenhower Memorial Commission (EMC) completed its 
review of 26 potential sites for the National Eisenhower Memorial. 
During this process, at the request of Senator Ted Stevens, the 
Commission pursued the possible joint development of the memorial with 
existing plans for a new headquarters of the United States Institute of 
Peace. Ultimately a proposed joint development arrangement negotiated 
by the Commission and its Special Counsel, in consultation with the 
Eisenhower family, was deemed not acceptable by the family and the 
Commission pursued other possible sites. In November 2004, following a 
request of the Eisenhower family, the Commission pursued establishing 
the memorial inside the Yates Building (the Auditor's Building) at the 
corner of Independence Avenue and 14th St. NW. However, when the matter 
came before the Commission in March 2005, Commissioner David Eisenhower 
stated it was not appropriate to put a memorial for one person inside a 
building named for someone else and that site was no longer pursued.
    In June of 2005, after exhaustive investigation, the EMC selected 
its preferred location--a potentially remarkable four-acre site at the 
base of Capitol Hill and one of the top twenty sites in Washington, 
D.C. designated by the National Capital Planning Commission (NCPC) for 
a future memorial. This site at the intersection of Maryland and 
Independence Avenues, SW, between 4th and 6th Streets, is prominent, 
accessible, and has strong thematic connections with Eisenhower.
    All of the neighboring institutions were influenced by Eisenhower's 
presidency. He created the precursor to the Department of Education, 
immediately adjacent to the site's southern border. He also created the 
National Aeronautics and Space Administration, whose work is 
highlighted at the National Air and Space Museum across the street to 
the north of the site. The site also boasts a stunning view of the U.S. 
Capitol along the Maryland Avenue view corridor, reflecting 
Eisenhower's exceptional respect among all Presidents for the authority 
of Congress.
    In May 2006, Congress and the President approved P.L. 109-220, 
selecting Eisenhower as an appropriate subject for a memorial within 
Area I, the prominent area of the Capital reserved for memorials of 
pre-eminent historical and lasting significance to the Nation. In 
September 2006, both the National Capital Planning Commission and the 
Commission of Fine Arts voted on and approved the Commission's 
preferred location as the future site of the Eisenhower Memorial. The 
site has been informally named ``Eisenhower Square.''
    In 2007, the EMC contracted with Skidmore, Owings and Merrill LLP 
(SOM) to create the Pre-Design Program to communicate to the 
prospective designer what the National Eisenhower Memorial should be, 
including goals, requirements, constraints, and opportunities. This 
effort included interviews with Commissioners, scholars, authors, 
Eisenhower family members, Eisenhower contemporaries, and many others.

Selection of Frank Gehry and the Preferred Design Concept
    In 2008, the Commission engaged with the General Services 
Administration's Design Excellence Program for design team procurement. 
The initial request for proposals garnered forty-four submissions, with 
four design teams advancing to final consideration.
    Following the GSA design team procurement recommendation, on March 
31, 2009, the Eisenhower Memorial Commission unanimously selected 
world-renowned architect Frank Gehry of Gehry Partners LLP as the 
designer for the National Eisenhower Memorial. Frank Gehry is one of 
the world's most celebrated architects, and has won the American 
Institute of Architects (AIA) Gold Medal, the Pritzker Prize, Britain's 
Royal Gold Medal, Japan's Praemium Imperiale, the Order of Canada, and 
the National Medal of Arts.
    In January 2010, the Commission announced its selection of the 
Gilbane Building Company for design and construction management 
services. Gehry Partners and Gilbane's contracts were finalized at the 
outset of 2010, marking the official beginning of the design process.
    On March 25, 2010, the Commission chose the preferred design 
concept for the National Eisenhower Memorial out of four possible 
options. The design selected encompasses a world-class memorial and 
civic space including time-honored memorial elements of sculpture, bas 
reliefs, tapestry, and quotations in materials which will endure 
through the ages. From the outset, the bas reliefs included large 
representations of the General and President.
    During the design phase, Frank Gehry immersed himself in General 
and President Eisenhower's life, traveling to Abilene, Kansas for a 
first-hand education on the life of his subject at the Eisenhower 
Presidential Library and Museum. The design team also worked with 
Eisenhower historians and the senior co-editor of the Eisenhower 
papers, Professor Louis Galambos, of Johns Hopkins University, to 
ensure that the design elements were historically accurate and true to 
their subject.

Memorial Design Phase: 2010-2012
    In 2010 and 2011, the Commission and design team successfully 
completed several rounds of meetings with federal review agencies--the 
U.S. Commission of Fine Arts (CFA), the National Capital Memorial 
Advisory Committee (NCMAC), and the National Capital Planning 
Commission (NCPC). The design team continued to refine the preferred 
design concept throughout this time, culminating in the unanimous 
endorsement and direction to proceed with the preferred design 
development. The design team then began work on construction documents 
which are at 75 percent completion at this time.
    Throughout much of 2011, the design team conducted significant 
research and testing on potential sources for the memorial's tapestry 
elements, to great positive effect. In late summer 2011, the Eisenhower 
Memorial Commission, CFA, and NCPC Commissioners and staff viewed and 
evaluated tapestry samples from three separate vendors. The Commission 
displayed the best of the tapestry `mock-ups' on-site in late August 
and again in September, receiving near-universal acclaim for their 
transparency and beauty, along with commendation for the determination 
of the design team to get this important feature of the design correct.
    In September 2011, the Commission of Fine Arts unanimously approved 
the memorial's design, noting that the scale was correct, and 
expressing great enthusiasm for the development of the design and the 
artistic quality of the tapestry mockups. They further noted that the 
sophistication of the design and the proposed artistic treatment ``will 
transform the site and the context of adjacent federal buildings.''
    The tapestry mock-ups also earned admiration from the U.S. 
Secretary of Education, Arne Duncan, who welcomed the memorial as a new 
neighbor in a letter wholeheartedly endorsing the memorial design in 
October 2011. The Architect of the Capitol also expressed its support 
for the design in a letter that same month, applauding the Commission's 
``decision, courage, and commitment of time'' to work within the 
Section 106 process to better the design.
    The Commission and design team participated in a series of NEPA/
Section 106 meetings throughout 2010 and 2011, named for the section of 
the National Historic Preservation Act of 1966 (NHPA), which requires 
federal agencies to take into account the effects of their undertakings 
on historic properties. In March 2012, a Memorandum of Agreement (MOA) 
was finalized, the Environmental Assessment (EA) concluded and a 
Finding of No Significant Impact (FONSI) was issued by the National 
Parks Service (NPS).
    Throughout this design stage, the Commission staff has briefed 
staff and members of Congress from the House and Senate Appropriations 
Subcommittees on the Interior and Defense, Natural Resources 
Committees, and other members of Congress who have expressed an 
interest in the memorial. While briefing members of Congress and their 
staff on the design, EMC staff has received near-universal positive 
response.
    The Commission continues to cooperate with other federal agencies, 
including an on-going partnership with the Department of Education to 
establish an attractive and useful promenade between the memorial and 
the main entrance of the Department of Education's Lyndon B. Johnson 
building. These efforts include enhancements such as space and 
facilities for new exhibits, meetings, events, and even retail.
    The Commission also works in partnership with the National Archives 
and Records Administration and the Eisenhower Presidential Library and 
Museum in Abilene, Kansas. These relationships enable the Commission to 
benefit from established federal resources in order to ensure that the 
memorial is an authentic representation of the Eisenhower historical 
legacy. These partnerships continue to be particularly useful as the 
Commission develops the electronic on-site and off-site components of 
the E-Memorial. The Commission expects that, once the memorial is 
completed, its prominent presence in the nation's capital will draw 
further attention to the library, cementing the reciprocal relationship 
between both entities and elevating public awareness of the Eisenhower 
Presidential Library and Museum.

Description of the Memorial Design
    The National Eisenhower Memorial in Washington, DC uses the 
traditional memorial forms of sculpture, bas relief, tapestries, 
realistic images and quotations, to honor Ike's unparalleled 
achievements in behalf of his country. For over 1,000 years, societies 
have employed these classic elements to recognize and memorialize their 
great leaders. In the design for this first presidential memorial to be 
built in our 21st century, Frank Gehry, America's foremost architect, 
has designed a memorial which speaks to Ike's great achievements while 
recognizing his humanity.
    Unlike other presidential memorials in Washington, DC, the 
Eisenhower Memorial will be located within a new urban park space, 
flanked by District streets. The Eisenhower Memorial is set within four 
acres of new parkland directly across from, and south of, the National 
Air and Space Museum. The memorial honors Eisenhower's achievements as 
the Supreme Allied Commander in World War II and as the 34th U.S. 
President in heroic-scale bas reliefs on monumental stone blocks. 
Quotations from several of his most memorable speeches will be 
inscribed on a nearby wall. Completing the powerful sculptural 
composition, a human-scale realistic statue of Eisenhower as a young 
man will be looking out to the images of the great military leader and 
president he will become. The setting for the memorial is elegantly 
created by an 80-foot tall limestone-clad columns supporting woven, 
stainless steel tapestries, which depict the Kansas plains where he 
grew up and where he developed the values and character which helped 
guide him to greatness.
    Pedestrians will arrive at the site from all four corners of 
Eisenhower Square, entering by passing under one of the tapestries, and 
converging in the center at the memorial itself. The positioning of the 
massive stone bas reliefs and the quotations wall create an area for 
quiet contemplation within, but separate from, the more active urban 
civic space. The memorial visitors will be able to talk to National 
Park Service rangers to learn more about Eisenhower. Group seating 
areas are provided throughout the site for school groups to gather and 
participate in presentations and discussions with their teachers.
    A rigorous materials-testing program is guiding material selections 
to ensure the durability of the memorial, which is being designed to 
last hundreds of years. Storage spaces and equipment are being provided 
on-site, in close consultation with the National Park Service, in 
direct support of their maintenance activities. The memorial will be 
built to current National Park Service standards for environmental 
sustainability and to conform to District of Columbia water management 
requirements. The Commission will seek LEED Silver certification for 
the memorial.
    The memorial is separated from its nearest neighbor, the U. S. 
Department of Education, by the 50-foot wide LBJ Promenade. This 
pedestrian promenade design provides an enhanced opportunity for the 
Department to engage with the public through interactive exhibits and 
other forms of outreach. An overlook at Promenade level provides a 
large, covered gathering space for the Department and for visitors to 
view the memorial in inclement weather.
    The memorial design masterfully creates an allee of trees along the 
portion of Maryland Avenue which formerly traversed the site. The 
commanding vista along the allee to the east directs the memorial 
visitor's eye to the dome of the Capitol, in part to recognize 
Eisenhower's extraordinarily collaborative and productive relationship 
with Congress.

E-Memorial
    In March, 2004 the Commission adopted a formal resolution in which 
it declared that the Eisenhower Memorial would be composed of both a 
physical memorial and a living memorial. The living memorial was 
described as including ``sponsored historical or policy research, 
publications, public presentations, commemorations or programs that 
will advance and perpetuate the legacy of Dwight D. Eisenhower and his 
contributions to the United States of America.'' In an effort to 
further define this latter concept, the Commission authorized a grant 
of up to $400,000 to the Eisenhower World Affairs Institute, then 
headed by Susan Eisenhower, with a mandate to coordinate with the 
existing Eisenhower legacy organizations and to develop a proposal 
suitable for adoption by the Commission. The report produced by the 
Eisenhower World Affairs Institute reflected a lack of consensus of the 
legacy organizations and did not embody actionable recommendations for 
Commission as to how its objective of a living memorial might be 
achieved.
    In 2007, the six legacy organizations jointly agreed that their 
existence represents the Living Memorial to Dwight Eisenhower and they 
unanimously supported the idea of electronic representation of 
themselves and their work within the physical elements of the memorial. 
This concept, which we refer to as the E-Memorial, is presently being 
developed.
    The National Eisenhower Memorial will be the first national 
presidential memorial of the 21st century and the first to incorporate 
an electronic companion memorial. The Commission has selected the New 
York City-based, award-winning media design firm, Local Projects, to 
design the E-Memorial.
    The E-Memorial consists of an on-site component and an off-site 
(website) component. Through a downloaded app, visitors will use their 
personal mobile devices to enhance the visit to the physical memorial. 
This app will provide a superior educational experience. There will 
also be resources available for teachers planning a visit. National 
Park Service Ranger commentary will be available for those who choose 
not to use their personal electronic devices. This technology is 
flexible enough to be updated. The Commission is coordinating with the 
Eisenhower Library in Abilene, Kansas, and the National Archives and 
Records Administration, to ensure that these already-established 
federal resources have a role in the continued interpretation of the E-
Memorial, to ensure that the information remains accurate and 
interesting.

Federal Contracting and Oversight
    The U.S. General Services Administration-National Capital Region 
(GSA-NCR) Public Buildings Service is the contracting agent for the 
Eisenhower Memorial Commission for the above work. The National Capital 
Region GSA office is designated to assist public commissions such as 
the EMC in the procurement and management of the above types of 
contracts. The Commission's Design and Construction Management 
Consultant directly serves GSA staff in executing these 
responsibilities.

Funding
    At the outset of the Commission's activities, a study was 
undertaken of Presidential memorials in Washington DC. It was 
determined that there are six national Presidential memorials, to 
Washington, Jefferson, Lincoln, Franklin Roosevelt, Theodore Roosevelt, 
and John F. Kennedy.
    These memorials were principally funded by the government, the most 
recent of which was the FDR memorial which was 89 percent federally 
funded. Members of the Eisenhower family have expressed concerns since 
the initial days of the Commission that any private fundraising for the 
Memorial could negatively impact the fundraising of the legacy 
organizations. Initially, it was intended that there be no private 
fundraising for the Eisenhower Memorial.
    As the Commission is a member of the Legislative branch, as opposed 
to a private initiative, it has been entirely funded by federal funds. 
In 2008, the House Appropriations Subcommittee on the Interior advised 
the Commission that it was expected that there be a private funding 
component for the Memorial. No specific amount was given. In 2011, the 
Commission hired Odell, Simms & Lynch, a firm with fundraising 
experience for memorials and other public projects, to lead a private 
fundraising effort.
    The estimated cost for the construction phase of the memorial, 
including operating the Commission, site preparation, construction of 
the memorial, GSA fees, and a construction management firm, is $112.5. 
The Commission has requested 80 percent federal funding, $89.8 million 
in the President's budget in FY2011 and FY2012. For FY2012, the 
Commission received one third of its request, $32.9 million to begin 
construction of the memorial.

Conclusion
    In conclusion, we at the Commission--both our Commissioners and 
staff--are appreciative of the opportunity to come before you today for 
this discussion of the memorial. As you can see, the Commission has 
been working for well over a decade in a sincere and dedicated effort 
to memorialize one of our Nation's great Presidents of the 20th 
century.
    The commission has been faithful to the prescribed GSA processes 
for both the design competition and contracting protocols. It is 
important to note that in terms of both time and money, a large 
investment has been made. The selection process yielded the premier 
designer and architect of the 21st century to lead this landmark 
effort.
    This has been a deliberative and extensive process from the 
beginning, with over 21 public meetings that provided a forum for 
public comment. The Commission has greatly benefitted from the 
participation of the Eisenhower family via David Eisenhower's 
participation as a Commissioner for a decade. As well, members of the 
family have appeared at Commission meetings and Frank Gehry has invited 
family members to visit his studio for the purpose of discussing the 
design.
    The Commission of Fine Arts has unanimously given its approval of 
this design, citing the beauty of the tapestries and the 
appropriateness of the memorial's scale. As we stand today, the design 
stage is near completion.
    It is time to build this memorial.
List of Appended Documents
    1.  Frank O. Gehry letter, March 19, 2012
    2.  David M. Childs letter, March 16, 2012
    3.  U.S. Commission of Fine Arts letter, September 22, 2011
    4.  U.S. Department of Education letter, October 12, 2011
    5.  Architect of the Capitol letter, October 17, 2011
    6.  List of public meetings, as of March 15, 2012
    7.  David Eisenhower's resignation letter, December 21, 2011
                                 ______
                                 

 Response to questions submitted for the record by Brig. Gen. Carl W. 
Reddel, USAF (Ret.), Executive Director, Dwight D. Eisenhower Memorial 
                               Commission

Questions from The Honorable Rob Bishop

1.  How has the commission attempted to reconcile the design concerns 
        of the Eisenhower Family?
    The Eisenhower Memorial Commission (EMC) has been making, and 
continues to make, a sincere effort to engage the Eisenhower family to 
discuss design concerns with the designer, Frank Gehry. In fact, as 
recently as April 16th, 2012, Mr. Gehry has offered to meet with the 
family at their convenience. Frank Gehry has indicated that there are 
still opportunities for the family to provide counsel and input on the 
memorial design.
    The Commission has worked with the Eisenhower family since it was 
created by Congress in 1999 and, for over a decade, very much 
benefitted from their input. David Eisenhower was appointed to the 
Commission by President Clinton and Commission staff and fellow 
Commissioners were united in their presumption that he represented the 
family on the Commission until his resignation in December 2011.
    The Commission was consistently assured by David Eisenhower that he 
represented the family. In fact, in May 2011, Mr. Eisenhower along with 
his sister Anne, participated in a lengthy private meeting in New York 
with Frank Gehry. The design concept of the tapestries representing a 
Kansas landscape, a statue of young Eisenhower, and the bas reliefs 
representing the President and General, were portrayed in a large 
design model and in a variety of presentation materials that were 
viewed by the family during this meeting. The design concept was fully 
discussed, including extensive conversations at dinner later that 
evening.
    At the conclusion of the July 2011 meeting of the Commission, David 
Eisenhower seconded the motion to direct Mr. Gehry to complete the 
design. Directly following the meeting, Commissioner Eisenhower spoke 
informally with a small group to express his full support of the 
evolving progress of the memorial's design. He said that he had spoken 
with his father, John S.D. Eisenhower, and that they were both 
supportive of the Commission's progress and its ongoing work with Frank 
Gehry. By that time, design preparation was at the completion of the 
development stage and had progressed into the construction document 
preparation phase.
    However, in October 2011, Anne and Susan expressed concerns about 
Eisenhower's memorialization and attempts were made to arrange a 
meeting for them with Frank Gehry. Due to schedule constraints on both 
sides, this meeting was set for December 1st, 2011.
    On December 1st, 2011, Mr. Gehry came to New York, to meet with 
David, Susan, and Anne Eisenhower. Susan and Anne arrived and said that 
David would not be attending the meeting. Mr. Gehry reviewed the 
concept guiding his evolving design and addressed the concerns of the 
Susan and Anne Eisenhower, including maintenance issues. Several days 
later, Anne Eisenhower sent an email to Mr. Gehry stating that the 
family did not like elements of the design but that it was not up to 
them to make suggestions for adjusting the design to their liking. A 
week later, the Commission was surprised and disappointed when David 
Eisenhower resigned, stating in previous private communications that he 
would resign rather than be in public dispute with his sisters.
    Following the meeting with Anne and Susan Eisenhower in December 
2011, Mr. Gehry and his design team believed they had made significant 
progress in understanding the concerns of the Eisenhower family and 
were prepared for additional engagement on design elements. They were 
then confronted with Anne Eisenhower's subsequent statements that the 
design was wholly unacceptable and that the family had no 
responsibility to propose changes.
    Despite the sisters' negative response, Mr. Gehry has consistently 
expressed his openness to working with the family and has repeatedly 
affirmed his availability to meet with the Eisenhower sisters. 
Alternative dates have been offered by Mr. Gehry to the family to 
travel to Mr. Gehry's studio to see the working models and to listen to 
the family's concerns.
    Although no visits have been scheduled, Mr. Gehry has remained 
willing to meet with the sisters and has asked them to send him dates 
when they would like to come to his studio. Mr. Gehry has indicated 
that opportunities remain for the family to provide substantive input 
on the design. On April 9th, 2012, Anne Eisenhower responded to Mr. 
Gehry saying they would not be meeting with him to help develop the 
evolving design.
    Anne Eisenhower's letter in response to Mr. Gehry's invitation for 
the sisters to meet with him greatly mischaracterizes several important 
points. Neither Mr. Siciliano nor any member of the Commission staff 
has stated that there will be ``no significant changes in the design.'' 
The Commission has supported the design concept, and Senators Inouye 
and Roberts have expressly solicited the views of the family. In fact, 
it is because of this willingness to work with the family that Mr. 
Gehry offered to make himself available at the sisters' convenience and 
Senators Inouye and Roberts encouraged them to do so in a letter dated 
March 27th.
    Anne's letter also implies that the family has raised concerns for 
a significant period of time and that the Chairman and the Commission 
staff have not been responsive to these concerns. As noted in this 
response, the major concerns raised by Susan and Anne are of a very 
recent origin. They began in late 2011, yet the Commission had been 
hard at work with David representing the family as a Commissioner since 
1999. The Commission has responded promptly and frequently with offers 
to meet and address these issues, including the aforementioned meeting 
in December 2011 and subsequent invitations from Mr. Gehry.

2.  Has a meeting, since the hearing, been scheduled between Mr. Gehry 
        and the Eisenhower Family?
    The EMC and Frank Gehry's staff have worked closely together to 
coordinate a visit for the Eisenhower family to Mr. Gehry's studio in 
Los Angeles. An open-ended invitation was issued by Frank Gehry to the 
sisters asking them to suggest dates compatible with their schedules. 
Mr. Gehry wants to be as accommodating as possible, to ensure that the 
family can travel to Los Angeles to view the refinements Frank Gehry 
has made in response to the December 2011 meeting and their recent 
comments, and to further provide insight, refinement, and advice within 
the framework of the design.
    On March 27, 2012, Senators Roberts, Inouye and the Commission 
asked the family to make a trip to Los Angeles in the next sixty days, 
in an effort to enable the memorial to proceed on schedule and on 
budget. While the tapestry that surrounds the memorial and the 
centralization of the heroic depiction of Eisenhower as General and 
President remain as elements of the design, Mr. Gehry has indicated he 
wants the family to work with him on other elements of the memorial.
    In addition to Frank Gehry and the Commission's efforts, Senator 
Pat Roberts and his staff have been working on behalf of the 
Commission's Executive Committee to encourage, arrange, and schedule 
Eisenhower family meetings at the Commission's expense with Frank Gehry 
and other pertinent parties.

3.  It says in the 2006 meeting minutes that Chairman Siciliano spoke 
        with Frank Gehry about designing the Eisenhower Memorial a few 
        years prior to that. Being that Gehry was ultimately selected 
        (in 2009), it could leave the impression that he was 
        preselected. Was Gehry the preferred candidate from the onset? 
        How can we know the competition was fair?
    There was no pre-selection of a designer or preferred candidate. In 
fact, when the selection was approved by the Commission at a Commission 
meeting in March 2009, David Eisenhower stated ``as a Commissioner and 
a member of the Eisenhower family he could vouch for the integrity and 
excellence of the selection process.''
    The competition was fair and unbiased. It was conducted in 
accordance with established procedures of federal law and executed by 
the Central Office of GSA in coordination with the National Capital 
Region. Representatives from the Eisenhower Memorial Commission 
constituted less than one third of the voting members of the Evaluation 
Board. The other members were selected by GSA Central Office and no 
representatives from the Eisenhower Memorial Commission chaired any of 
the panels. The entire process was overseen by a GSA contracting 
officer. David Eisenhower was the only Commissioner to serve on both 
the non-voting Design Jury as well as the GSA Design Evaluation Board.

4.  Why did you simply ask for qualifications and ``design 
        philosophy,'' but not actual designs from architects?
    The RFQ announcement identified a three-stage procurement process 
under the GSA Design Excellence Program. It was a portfolio-based 
selection. The announcement offers the opportunity for interested 
parties to ask the Contracting Officer for a copy of Volume 1 of the 
Pre-Design Program by way of further introduction to the project. In 
this way, interested parties do not have to rely on ``the word on the 
street'' to learn about the project and they cannot contact EMC or any 
government entity concerned with the procurement once the RFQ is out 
for response. The Stage 1 submittal is mostly portfolio and resume 
information required of the proposed lead designer and her/his 
associated firm.

Evaluation Criteria
    The FBO Announcement included the Stage 1 evaluation criteria which 
were as follows:
        1.  Lead designer portfolio [55%]
        2.  Philosophy and Design Intent [20%]
        3.  Past Performance on Design [15%]
        4.  Lead Designer Profile [10%]
    Evaluation Criteria were similarly included in the announcement of 
each successive evaluation stage.

Selection Process
    According to the Commission's Executive Architect, the GSA Report 
details that GSA Central Office was in charge of the memorial designer 
selection process along with the Contracting Officer from GSA National 
Capital Region. An Evaluation Board of 12 members [the only Commission 
representatives on this board were two EMC Commissioners, Rocco 
Siciliano and David Eisenhower, and the EMC Executive Architect Dan 
Feil] reviewed the forty-four [44] proposed lead designer portfolios 
and the other components of the submittals. The Evaluation Board voted 
on a preliminary short list of seven [7] designers and associated firms 
for further consideration. All votes had equal weight. Stage 2 
submittals by this short list of seven firms identified the full design 
team and provided a preliminary vision for the memorial. The 
preliminary vision is the lead designer's interpretation of the Program 
in sketch form. They were presented at individual team interviews. The 
vision is not a design concept; that can only be developed once the 
actual designer and design team is selected and under contract. Stage 2 
resulted in a final short list of four teams which continued to Stage 

3. In Stage 3, firms received a stipend and were asked to further 
develop their vision. A Jury of eight [8] Professional Peers and 
Commissioner David Eisenhower reviewed and commented on the submitted 
Stage 3 visions to the Evaluation Board. Interviews with the four [4] 
final short-listed firms were held. The Evaluation Board then fully 
evaluated the final short list and recommended the first and second 
place firms.
    Only three [3] of the twelve [12] member Evaluation Board were EMC 
Commissioners or staff. Only one [1] Commissioner (David Eisenhower) 
was a member of the nine [9] member Jury. The Evaluation Board was 
chaired by GSA and the jury was chaired by an architect in private 
practice. Neither EMC Commissioners nor staff chaired the panels. GSA 
Central Office had to approve all panel members and invited all 
participants. Only David Eisenhower served on both panels, the Jury and 
Evaluation Board. Professional Peers are routinely used by GSA on these 
evaluation boards and juries. Additionally, EMC Commissioners Alfred 
Geduldig and Susan Banes Harris were both observers for the evaluation 
process. This allowed them to attend the interviews and the panel 
deliberations, but not to ask questions of the Panels during 
deliberations. They were non-voting.
    The recommendation of the Panel was also formally reviewed by GSA-
National Capital Region (Office of Legal Counsel and the Contracting 
Officer) and a report prepared. The report with the decision of the 
Evaluation Board was signed by each member. The recommendation was then 
forwarded to the Commission, which held a Commission meeting on March 
31, 2009 to decide whether or not to accept this recommendation.
    This is the formal process for this type of federal procurement. It 
is inappropriate to ask for actualized designs for the memorial without 
providing an opportunity for the designer to meet with the appropriate 
federal review agencies the National Capital Planning Commission 
(NCPC), Commission of Fine Arts (CFA), National Capital Memorial 
Advisory Commission (NCMAC)), the Eisenhower family, and with the 
Eisenhower Memorial Commission. Federal laws including the National 
Environmental Policy Act and the National Historic Preservation Act 
require public input during the design process.

5.  How did you publicize that Americans could apply to design the 
        Eisenhower Memorial?
    The competition was advertised on FedBizOpps. This is considered 
``required reading'' for federal business opportunities and is 
considered normal procedure for federal design and building 
opportunities.
    The memorial design contract was a public federal procurement and 
followed the Federal Acquisition Regulations. The overall process was 
administered by the General Services Administration/National Capital 
Region [GSA/NCR] with the management of the memorial designer selection 
process by the GSA Central Office. The design project was announced 
publicly in the Federal Business Opportunities [FBO] website. With the 
approval of the Contracting Officer, notice of the Request for 
Qualifications was also listed by the American Institute of Architects 
and the American Society of Landscape Architects on their respective 
websites after it was posted on FBO. The announcement was also listed 
prominently on the EMC website and on the GSA website once it was 
public information on FBO. See also answer #4.

6.  Why did you choose to run the competition via the Design Excellence 
        Program despite its difficulties in the case of the National 
        World War II Memorial competition, including the public outcry 
        against the initial competition? Were you aware of those 
        difficulties?
    The Eisenhower Memorial Commission has very limited direct 
contracting authority. The National Capital Region of the General 
Services Administration is set up to provide design services 
contracting for federal commissions such as ours. The GSA Design 
Excellence Program is well-respected within the design community as 
signifying the desire for a high quality design effort. The nature of 
the GSA Design Excellence program was well expressed by William Guerin, 
Assistant Commissioner for the Office of Construction Programs, Public 
Building Service, U.S. General Services Administration, in the 
following testimony before the Subcommittee on March 20, 2012:
    GSA's Design Excellence process seeks to commission the nation's 
most talented architects, and engineers to design projects of 
outstanding quality and value. We use the Design Excellence process to 
select Architect/Engineer firms for our new constriction and major 
modernizations. These projects aim to demonstrate the value of truly 
integrated design that balances aesthetics, function, cost, 
constructability, reliability, reduced energy consumption, and gives 
form and meaning to our democratic values.
    The Design Excellence program provides a competitive and 
streamlined process for identifying qualified firms, and then asking a 
short list of highly qualified firms for design proposals that allow us 
to select the firm representing the best value to the government. As 
part of this process, GSA utilizes the expertise of private sector 
peers to assist in evaluating the firms, ensuring that we benefit from 
the knowledge of a wide variety of individuals.
    In March 2008, EMC conducted a survey of its Commissioners as to 
whether they preferred a portfolio-based competition, such as the one 
used when the World War II Memorial design competition was initiated, 
or whether they wanted to open the competitive process to a broader 
group, such as was eventually done for the World War II project. The 
pros and cons of both methodologies were discussed with the EMC 
commissioners prior to their polling and they ultimately chose to 
pursue a portfolio-based selection.

7.  Do you think it was sufficient that the Eisenhower Memorial 
        competition was advertised only at FedBizOpps.gov? Did the 
        Eisenhower Memorial Commission seek to maximize interest in the 
        competition? If not, why?
    The memorial design contract was a public federal procurement and 
followed the Federal Acquisition Regulations. The overall process was 
administered by the General Services Administration/National Capital 
Region [GSA/NCR] with the management of the memorial designer selection 
process by the GSA Central Office. The design project was announced 
publicly in the Federal Business Opportunities [FBO] website. With the 
approval of the Contracting Officer, notice of the Request for 
Qualifications was also listed by the American Institute of Architects 
and the American Society of Landscape Architects on their respective 
websites after it was posted on FBO. The announcement was also listed 
prominently on the EMC website and on the GSA website once it was 
public information on FBO.

8.  Of the 44 entries the competition received, how many and which ones 
        were specifically solicited by the Eisenhower Memorial 
        Commission and/or its agents?
    After the RFQ was published in FedBizOpps and published on other 
sites as noted previously, with the approval of the GSA Contracting 
Officer, letters were sent by the Eisenhower Memorial Commission 
Executive Architect to thirty architects and landscape architects 
announcing the RFQ for design services for the Eisenhower Memorial. 
These were not a solicitation of any kind. This was another outreach 
effort to ensure the Commission received as broad a range of responses 
to the RFQ as possible.
    GSA did not analyze the question of whether any of the recipients 
of the letters in fact responded to the RFQ.

9.  Have you ever made the competition entries public?
    GSA has control over the submissions by prospective designers and 
has allowed the individual designers to release their submissions at 
their discretion. The Eisenhower Memorial Commission has no authority 
in this area and we encourage the Committee to make this inquiry 
directly to GSA.

10.  Would you provide the committee with Frank Gehry's submission?
    The submissions are under the control of GSA and we suggest you 
make this inquiry to GSA.

11.  What official actions, including votes, did the Eisenhower 
        Memorial Commission take between its 2007 and 2009 meetings? 
        If, as you stated in your testimony, there were no official 
        meetings during that time period, on what authority were those 
        actions taken?
    When the Commission was first created by Congress in 1999, it faced 
multiple challenges of deciding where and what the memorial to General 
and President Eisenhower would be. After the memorial's site was 
approved by Congress and the President in 2006, we knew the `where.' 
The next step was to determine the `what.' In order to do this, the 
Commission undertook the creation of a Pre-Design Program. EMC staff 
worked with the firm Skidmore, Owings & Merrill LLP (SOM) to develop 
this Program. Its purpose was to lay out the challenges of the 
memorial's site and detail the historical legacy of the memorial's 
subject to prepare the future design firm.
    After the Pre-Design Program was completed, Commissioners would 
decide whether to accept it (which they did), and they needed to choose 
the process by which a designer would be selected. Commissioners and 
their staff were thoroughly briefed on the details and the 
ramifications of these decisions, both in-person and through written 
materials, and Commissioners agreed to clearly indicate their 
preferences via poll.
    Commissioners were polled on the following matters: support or 
oppose the Pre-Design Program; select a Manager of Design and 
Construction among GSA, NPS, or Architect of the Capitol; to proceed 
with a portfolio-based Competition or an Open Competition; and whether 
the project should be open to international designers or national 
designers.
    In March 2008, Commissioners indicated their preference to: 1) 
support the Pre-Design Program; 2) use GSA as the design and 
construction management services provider; 3) proceed with a portfolio-
based competition; 4) restrict the project to national designers.
    Once this decision was made, the procurement process was organized 
and announced publicly. Once the procurement process began, it was the 
major focus of the efforts of the Commission, and due to procurement 
rules, it was not a subject that could be publicly discussed by the 
Commission. It would have been inappropriate to hold a Commission 
meeting during this process to discuss the procurement.
The schedule for the entire process was as follows:
August 2008--Announcement in FedBizOpps
October 2008--Stage 1
Evaluation Board Meeting--44 submittals to 7
December 2008--Stage 2
Evaluation Board Meeting--7 to 4
March 2009--Stage 3
Jury Meeting--Pros and Cons of Vision Statements
Evaluation Board Meeting--Selection of Nos. 1 and 2.
March 31, 2009--Commission Meeting--Selection was approved by 
        Commissioners
    Please note, intervals between Eisenhower Memorial Commission 
meetings have been the following between 2001 and 2011: 3, 7, 14, 5, 9, 
9, 12, 3, 3, 6, 16, 20, 12, and 16 months.
12.  What unofficial Eisenhower Memorial Commission meetings or 
        assemblies were held between its 2007 and 2009 official 
        meetings? What was the business of those meetings or 
        assemblies, and were all Commissioners invited to them? Were 
        those meetings or assemblies held off the record, and if so, 
        why?
    As stated above, there were no unofficial meetings or assemblies 
between 2007 and 2009.

13.  How much will you pay the Washington, DC government for lost 
        parking revenue?
    The Commission has been working for the past several years with the 
District's Department of Transportation (DDOT) to determine a fair 
market value rate to compensate for the permanent loss of revenue from 
69 parking meters. We have worked through DDOT staff, staff from the 
Deputy Mayor's office, and members of the D.C. Council, but have yet to 
determine a precise value. Councilman Tommy Wells' staff has agreed to 
assist the Commission in determining this amount, but has advised that 
we not pursue this until the Commission attains design approval from 
the National Capital Planning Commission.

14.  What do we know about the durability of the tapestry? How long 
        could it be expected to last without replacement? On what are 
        these estimates based? What will be the annual maintenance cost 
        for the tapestry?
    Since the inception of the project, the Commission has worked with 
its sponsor, the National Park Service, which will operate and maintain 
the memorial after it is completed, to ensure that all elements of the 
memorial will be maintainable and lasting. It is mandated in the 
designer's contract that all elements of the memorial shall last for a 
period of at least 100 years.
    The design team has performed material testing for the stainless 
steel wire proposed to produce the tapestry. Those test results 
indicate no corrosion to the surface of the material when exposed to 
conditions simulating the environment. The testing represents 
accelerated age testing.
    Further testing along with the National Park Service will be 
continuing, with a series of performance tests using final production 
of the tapestry itself. The performance tests will provide results for 
in-situ conditions. The tapestry and supporting elements have also been 
studied in a wind tunnel laboratory. Those results have helped the 
engineers with supporting information in the design of the structural 
integrity. Maintenance planning will be based upon the performance 
testing. Maintenance and accessibility plans are considered and 
incorporated into the planning of the memorial.
    Gehry Partners has had many meetings regarding the maintenance of 
the tapestries, and the design team has created a strategy for 
accessing all surfaces of the tapestries for general cleaning and 
maintenance. This system will ensure that NPS staff can easily access 
and maintain the tapestries.
    As designer Frank Gehry indicated in his statement to the Committee 
on March 19, 2012, EMC, NPS, and GSA have repeatedly ``drilled'' into 
the design team the importance of ensuring that the tapestries are 
cleanable, durable, and maintainable.

15.  Typically, memorials under the Commemorative Works Act must have 
        all funding in place before construction can proceed. Is that 
        the case with the Eisenhower Memorial? If not, why was this 
        accommodation made?
    In its FY12 appropriations, Congress decided to fund memorial 
construction in increments as opposed to a lump sum. To accomplish 
this, Interior Appropriations staff included language in the 
Commission's appropriations legislation that ``the funds appropriated 
herein shall be deemed to satisfy the criteria for issuing a permit 
contained in 40 U.S.C. 8906(a)(4) and (b),'' which allows the 
Commission to proceed with construction.

16.  If the Eisenhower Memorial was cancelled tomorrow, what are the 
        outstanding obligations of the commission and the status of the 
        $33 million for the fiscal year 2012 appropriation?
    These funds have been appropriated and are in our account. They are 
being used as is designated. Currently, there are approximately $9 
million of obligations outstanding.

17.  Would you please submit the bylaws of the Eisenhower Memorial 
        Commission?
    The Commission is not a corporate body and does not operate under a 
set of by-laws. The Commission, which was established by Congress, 
operates under the authority of its enabling legislation, P.L. 106-79, 
as amended by P.L. 110-229.

18.  In the letter you submitted by Frank Gehry, he stated that the 
        artist Charles Ray ``is not currently nor has he ever been 
        formally connected with the project.'' In what non-formal ways 
        has Mr. Ray been connected with the project? Did he receive 
        compensation for any work he did for the Memorial? If so, how 
        much?
    Mr. Ray has never had a formal connection to the project. EMC staff 
have not had any formal, or non-formal, contact or communications with 
Mr. Ray, nor made any payments to Mr. Ray.

19.  What is the status of private fundraising for the memorial?
    In the spring of 2011, through a competition overseen by GSA, the 
Commission awarded a private fundraising contract to Odell, Simms & 
Lynch (OSL), an accomplished and successful fundraising firm located in 
Falls Church, Virginia. OSL has developed a fundraising strategy which 
it is in the process of executing. Senator Roberts has sought to 
arrange a meeting of OSL with Anne and Susan Eisenhower to discuss the 
effort.

20.  Did you ever do a feasibility study on the commission's ability to 
        conduct private fundraising?
    The Commission was urged to undertake a feasibility study by House 
Interior Appropriations Subcommittee staff in 2008. Upon request, 
Senator Pat Roberts' staff recently shared this study with the 
Eisenhower family. It was pointed out to the family that the 
information contained is outdated and does not reflect the current 
market conditions. The Commission's fundraising strategy is based on 
the expertise of OSL and current market conditions.

21.  When did the full commission vote to formally approve the concept 
        design?
    At a formal meeting of the Commission on March 25, 2010, the 
Commission voted to unanimously approve the preferred design concept. 
This concept was unanimously re-affirmed at a subsequent Commission 
meeting on July 12, 2011 and directed Mr. Gehry to complete the design 
as presented to the Commission at that meeting.

22.  How many paid employees, including consultants does the Commission 
        have?
    As indicated in the Commission's FY13 Budget Justification, the 
Commission has seven full-time temporary federal employees, and four 
contract employees, including the Commission's Executive Architect.

23.  Is there a retail component to the design? If so, what are the 
        plans?
    The Park Service will have a small bookstore/ranger station on-
site, similar to the facilities at the FDR and the MLK memorials. The 
bookstore operations are conceived by NPS as an integral part of their 
education efforts. The NPS ranger station is co-located within the 
bookstore space to facilitate this goal.
                                 ______
                                 
    Mr. Bishop. Thank you.
    We will next turn to Mr. Howard Segermark, who is the 
Director of the National Civic Art Society. Mr. Segermark, 
please.

  STATEMENT OF HOWARD SEGERMARK, CHAIRMAN EMERITUS, DIRECTOR, 
                   NATIONAL CIVIC ART SOCIETY

    Mr. Segermark. Thank you, Mr. Chairman, Ranking Member 
Grijalva, Members of the Subcommittee, ladies and gentlemen. My 
name is Howard Segermark. I am not architect or an artist. I 
worked on Capitol Hill as a staffer for both Republican and 
Democratic Members. And I am a founder and past Chairman of the 
National Civic Arts Society, NCAS, a nonprofit organization 
dedicated to education about classical and traditional 
architecture and art, those traditions that the Founding 
Fathers believed embodied the principles of a democratic 
republic.
    I want to thank the board and members of the NCAS for 
research and advice on this testimony, and in particularly, our 
current Chairman, Justin Shubow, and our Secretary, Eric Wind.
    Mr. Chairman, our monuments are of central importance to 
our national identity and historical memory. Controversy is 
nothing new in the history of Presidential memorials; indeed, 
it has embroiled virtually every single one. To mention the 
most recent example, it took three separate competitions to 
settle on a final design for the FDR Memorial. In the first 
instance, the design was rejected because the Roosevelt family 
objected to it.
    But why is this particular memorial controversy occurring 
only now, relatively late in the planning process? The reason 
is simple. The entire process has flown under the radar, with 
little public and as little congressional attention as 
possible.
    Edward Feiner, former Chief Architect for the General 
Services Administration, who was involved in the Eisenhower 
Memorial design guidelines, said, ``It is amazing what you can 
do when no one is looking.'' Well, we began to look, and the 
more we dug, the more we unearthed several disturbing findings. 
Given the limitations of time, I can mention just a few, but I 
encourage the Subcommittee to follow up on some of these 
matters.
    First, designer selection process: According to the minutes 
of the very first meeting of the Eisenhower Memorial Commission 
all the way back in 2001, Chairman Rocco Siciliano specifically 
mentioned Frank Gehry as the sort of architect the Commission 
should consider. Minutes from the 2006 meeting state, 
``Chairman Siciliano mentioned that he had had a discussion 
several years ago with architect Frank Gehry, who indicated an 
interest in a possible design of the Eisenhower Memorial.'' Mr. 
Siciliano also had had a professional relationship with Gehry 
on at least three prior occasions.
    It appears that in 2008, the Commission designated Daniel 
Feil, its Executive Architect, as its agent to oversee and 
direction the design competition. Mr. Feil chose to run the 
competition under the guidelines of GSA's Design Excellence 
Program, a program that was never intended to be used for 
memorial competitions. It basically limits the candidates, in 
this instance, to only 44 hand-picked firms.
    Thus, the use of the Design Excellence Program for the 
Eisenhower Memorial made it impossible to see unknown and 
untested talent, such as Maya Lin, who designed the Vietnam 
Veterans Memorial. In the 1990s, the initial competition for 
the World War II Memorial was run according to the Design 
Excellence Program. There was a public outcry about the design, 
and it was changed.
    Adding to our concerns, when the Eisenhower Commission 
recently released the minutes from its meetings, it did not 
publish the minutes from meetings in 2008 at which the 
competition was discussed. Stranger still, there does not 
appear to have been a quorum at those crucial meetings. What 
exactly is in those missing minutes, and why has the Commission 
never released the materials submitted by competition entrants?
    The Commission's competition cost $2 million and resulted 
in a colossal design that is now estimated to cost $119 
million. And that cost does not include the unusually expensive 
maintenance that the tangled steel screens will require 
forever, assuming the new technology actually lasts. Indeed, 
projected maintenance costs have not been released, if they 
have even been calculated.
    In the spring of 2011, the National Civic Arts Society, 
together with the Institute for Classical Architect and Art, 
held an Eisenhower Memorial counter-competition open to all to 
suggest what a traditional, dignified alternative might look 
like. With a budget of under $3,000, we received over 40 
entries. We announced the astronomical first of $1,000 and $500 
for the runner-up.
    If I had time, I would show that these proposals are not 
just superior in beauty, but more comprehensible than Mr. 
Gehry's confused design. They are harmonious with the plan of 
the city, and their estimated costs are far more reasonable, 
though NCAS does not advocate any specific design.
    The GSA has a reputation of protecting the taxpayer, and 
the Park Service has a history of maintaining our natural 
heritage. But on occasion, circumstances can conspire to 
produce a real mess. This seems to be one of those instances.
    But Congress can act to clean it up. Eisenhower deserves 
it. One remedy is simply: a new competition, one that is open 
to an unknown architect from, say, Abilene as it is to a 
``starchitect'' from Los Angeles.
    I stand ready to answer any questions. Thank you very much.
    [The prepared statement of Mr. Segermark follows:]

           Statement of Howard Segermark, Chairman Emeritus, 
                  Director, National Civic Art Society

    Mr. Chairman, Ranking Member Grijalva, members of the Subcommittee, 
ladies and gentlemen, my name is Howard Segermark, I'm not an architect 
or artist. I worked here on Capitol Hill as a staff members for both 
Republican and Democratic members of Congress and I've worked for a 
number of nonprofit organizations. I've read a bit about architecture 
and about what makes a city great, and I was drawn to classical 
architecture. I'm a founder and past Chairman of the National Civic Art 
Society, a nonprofit organization dedicated to education about 
architecture and art--with a view to supporting classical and 
traditional architecture and art--those traditions that the founding 
fathers believed embodied the principles of a democratic republic. I 
want to thank the Board and members of the NCAS for help and advice for 
this testimony, and in particular, NCAS present Chairman, Justin Shubow 
and our Secretary, Eric Wind.
    Mr. Chairman, our monuments are of central importance to our 
national identity and historical memory.
    Controversy is nothing new in the history of our presidential 
memorials. Indeed, it has embroiled virtually every single one. To 
mention the most recent example, it took three separate competitions to 
settle on a final design for the FDR Memorial. The first two officially 
selected designs were rejected--in the first instance because the 
Roosevelt family objected to it.
    Many people might be wondering why this particular Memorial 
controversy is occurring only now, relatively late in the planning 
process. The reason is simple: the entire process has flown under the 
radar with as little public--and as little congressional--knowledge as 
possible. To quote Edward Feiner, the former chief architect of GSA who 
was involved in the Eisenhower Memorial design guidelines, ``It's 
amazing what you can do when no one's looking.''
    Well, we began to look, and the more we dug, the more we unearthed 
several disturbing findings. Given the limitations of time, I can 
mention today just a few, but I encourage the Subcommittee to follow-up 
on some of these questions.
    First, designer selection process, including the so-called 
competition in 2008-2009. According to the minutes of the very first 
meeting of the Eisenhower Memorial Commission, all the way back in 
2001, Chairman Rocco Siciliano specifically mentioned Mr. Gehry as the 
sort of architect the Commission should have in mind. He mentioned Mr. 
Gehry again at the 2006 meeting, ``Chairman Siciliano mentioned that he 
had a discussion several years ago with architect Frank Gehry, who 
indicated an interest in a possible design of the Eisenhower 
Memorial.''
    Chairman Siciliano had had a previous professional relationship 
with Gehry on at least three prior occasions. Most prominently, when 
Chairman Siciliano was a leader of the Los Angeles Philharmonic's Board 
of Directors, he served on the Building Committee that hired Mr. Gehry 
to design the symphony's new concert hall.
    It appears that in 2008, the Commission designated Daniel Feil, its 
executive architect, as its agent to oversee and direct the 
competition, which he chose to run by means of GSA's Design Excellence 
Program. This was a very strange decision. That program was never 
intended to be used for the selection of designers for monuments, and 
memorials. Its fundamental purpose has been to select architects for 
federal office buildings, courthouses, and warehouses. It is important 
to understand that memorials are quite different from buildings--one 
does not need to be an architect to design a memorial. All it takes is 
an artist or amateur with a good idea, which an executive architect can 
later bring to fruition. Yet the Design Excellence Program is open only 
to architects--indeed, only architects with a substantial portfolio.
    By contrast, the American way has been to choose designers for 
memorials not just according to actual design proposals but according 
to entries submitted blindly. But as just noted, the Design Excellence 
Program reverses this by making the designer's identity and record of 
paramount importance. Furthermore, competitions for national memorials 
have tended to be open, not closed, competitions, unlike in the case 
here.
    Thus, the use of the Design Excellence Program for the Eisenhower 
Memorial made it impossible to discover unknown and untested talent--
such as Maya Lin for the Vietnam Veterans Memorial and Henry Shrady for 
the Grant Memorial. Consider that Eisenhower's own rise from small-town 
Kansas to West Point was made possible only because the cadet-
nominating process was open and democratic.
    Furthermore, as the Commission ought to have known, the history of 
using the Design Excellence Program for memorials does not bode well 
for it. In the 1990s, the initial competition for the World War II 
Memorial was run according to the program. Due to the undemocratic 
nature of the competition, there was a public outcry against it. As a 
result, the organizers of the competition backed down and made the 
competition open. Such an outcry did not occur for the Eisenhower 
Memorial because the competition received so little publicity.
    Amazingly, the Eisenhower competition solicited only 44 entries. 
This is hundreds fewer than the number of entries in open competitions 
for previous national memorials. Forty-four submissions was a small 
number even for run-of-the-mill federal office buildings around the 
same time period.
    The Eisenhower competition appears to have been advertised only in 
one obscure place: FedBizOpps.com. And why did Mr. Gehry bother to 
enter, when he has said on numerous occasions that he does not like 
entering competitions because he does not like losing?
    Adding to our concers, when the Eisenhower Commission recently 
released the minutes from its meetings, it did not publish the minutes 
from meetings circa 2008 at which the competition was discussed. 
Stranger still, there does not appear to have been a quorum at those 
crucial meetings. What exactly is in those missing minutes? And why has 
the Commission never released the materials submitted by competition 
entrants?
    The competition cost two million dollars and resulted in a colossal 
design that is now estimated to cost $119 million dollars. And that 
cost doesn't include the unusually extensive maintenance that the 
tangled steel screen will require for all of perpetuity--assuming the 
tapestry lasts beyond 100 years. Indeed, projected maintenance costs 
have not been released, if they have been calculated.
    In the spring of 2011, the NCAS, together with the Institute for 
Classical Architecture & Classical America Mid-Atlantic Chapter, held 
an Eisenhower Memorial Counter-competition to suggest what a 
traditional, dignified alterative might look like. With a budget of 
just $3,000, we received over 40 entries. We announced an astronomical 
prize of $1,000 to the winner and $500 for the runner-up. If I had 
time, I'd show that these proposals are not just superior in beauty and 
more comprehensible to the average citizen than Mr. Gehry's confused 
design. They are harmonious with the plan of the city and blend into 
the tradition of our presidential memorials. And their estimated cost 
is far more reasonable and in line with previous memorials. NCAS does 
not advocate any specific design.
    The General Services Administration has massive responsibilities 
and it almost always protects the taxpayer in its purchase of goods, 
services and buildings. The Park Service has a history of maintaining 
our natural heritage. But on occasion, circumstances can conspire to 
produce a real mess. This seems to be one of those instances, but 
Congress can act to clean it up. Eisenhower deserves it.
    Our remedy is simple: a new competition, one that is as open to an 
unknown designer from Abilene as a ``starchitect'' from Los Angeles. I 
stand ready to answer any questions I can and the National Civic Art 
Society stands ready to undertake research or respond to requests for 
expert counsel from artists and architects.
    Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you, sir.
    We will next turn to Mr. Cook, who is the President of the 
National Monuments Foundation, once again, for five minutes. 
The timer is there. We are ready to hear your testimony.

    STATEMENT OF RODNEY MIMS COOK, JR., PRESIDENT, NATIONAL 
                      MONUMENTS FOUNDATION

    Mr. Cook. Chairman Bishop, I am honored to be here to share 
with you my opinions based on 30 years of experience within the 
traditional architect world. The NMF creates self-sustaining 
destruction landmarks of national historical and aesthetic 
relevance, with a strong focus on interactive technology, in 
order to teach younger Americans in their language. We make 
history cool.
    We are among the few private organizations that design, 
build, own, operate, and maintain civic assets. We are 
headquartered in the Millennium Gate Georgia History Museum, a 
100-foot-tall triumphal arch. This $21 million ensemble is set 
in a four-acre lakeside park in Midtown Atlanta, surrounded by 
allegorical sculpture and equipped with a high-tech active 
theater. You may have six Millennium Gates for the cost of one 
Gehry memorial on similar-sized sites.
    I was asked by the National Civic Arts Society to judge the 
alternative competition for the Eisenhower Memorial. I declined 
their invitation, indicating that I thought it my patriotic 
duty to enter the competition instead, and did so with Michael 
Frank.
    Having studied Mr. Gehry's design, it was my conclusion 
that he has a distinctive unease with greatness, he is afraid 
to leave something out, and succumbs to narrative literalism. 
As Williams College Professor Lewis says, ``Great monuments are 
simple, lucid, and say only one thing: We honor. We endure. We 
celebrate. We grieve.''
    I would like to disclose that I am an Emeritus Board Member 
of the Institute of Classical Architecture and Art, a co-
sponsor of the alternative competition. Michael Frank and I 
were among the winners. As a result of this issue, should there 
be another competition, I will not enter it.
    In a city that is overflowing with green-scapes and parks, 
this site provides one of the most important urban 
circumstances to provide Washington her principal successful 
civic square, as called for by the McMillan Plan. A ``theater 
for the automobile,'' which is how Mr. Gehry describes his 
design, will continue the exodus of inhabitants as soon as they 
are allowed to leave their workplaces.
    A design must conform with the 1791 L'Enfant and 1901 
McMillan Plans, the fundamental zoning codes for the City and 
the monumental core. No subsequent zoning plan put forth by 
NPS, NCPC, or any other agency has ever replaced them.
    The Gehry plan, having gone through the GSA Design 
Excellence Program, has attempted to compromise this rule. The 
Memorial Commission and Gehry intend to redefine what it means 
to build a memorial, far exceeding the congressional mandate to 
build one to honor Eisenhower's accomplishments.
    To me, this new literalism is the most important in this 
hearing. We have an accepted rule, and either we stick to it or 
we throw it out. If you go this new direction, we might as well 
tear down the Lincoln Memorial and put a log cabin there.
    Monuments should be built from materials that last for 
centuries. Mr. Gehry does not typically spec this type of 
material. It is my understanding that the gigantic fence 
described as a tapestry is promoted by the Gehry team as larger 
than the Hollywood sign. In urban environments, acid rain, bird 
droppings and air quality will seriously disintegrate this 
feature and most likely cause security issues for pedestrians 
below. The only positive thing I can say about it is that most 
likely very few people would ever go there and so there is less 
chance that a piece of Kansas would fall on someone's head.
    Trash collects in public spaces. The wind blows and 
visitors are careless. Gusts will blow standard city trash all 
over the 600-foot-long fence. We have to clean our Millennium 
Gate Park every day, and the cost to clean this simple place is 
expensive. The cost to clean the Gehry enormous structure every 
day will be more expensive.
    Though Eisenhower belongs to all of us, he truly belongs to 
the Eisenhower family, and their opposition must be honored. 
Successive generations of this family have continued to serve 
our country, and we owe them respect as much for that service 
as we do for their heritage.
    I end with a paraphrase of the General's letter written in 
case Operation Overlord was unsuccessful. ``Our landings have 
failed. The troops, the Air and the Navy, did all that bravery 
and devotion to duty could do. If any blame or fault attaches 
to the attempt, it is mine alone.''
    This is the character of the man we are attempting to 
honor. We must get this right. The current design is 
magnificent anti-heroism. Please call for a new and open 
competition.
    [The prepared statement of Mr. Cook follows:]

             Statement of Rodney Mims Cook Jr., President, 
                     National Monuments Foundation

    My name is Rodney Mims Cook Jr. and I am President of the National 
Monuments Foundation. I appreciate the honor of being invited here to 
share with you my opinions based on thirty years of experience within 
the traditional architectural world. The National Monuments 
Foundation's purpose is to build monuments, museums, parks and civic 
spaces for the ages which will uplift the communities in which they are 
built, through a classical approach. The foundation creates self-
sustaining destination landmarks of national, historical and aesthetic 
relevance with a strong focus on interactive technology. We make 
history cool.
    We are among the few organizations that design, build, own, operate 
and maintain civic assets. I have read that Mr. Gehry thinks there are 
no great sculptors left in the world. I disagree and a number of great 
works from various global sculptors are identified in some of our 
images. We are headquartered in the Millennium Gate Georgia History 
Museum, a 100-foot tall triumphal arch based on the Arch of Titus in 
the Roman Forum. This 21 million dollar ensemble is set in a four acre 
park on a lake in Midtown Atlanta, surrounded by allegorical sculpture.

[GRAPHIC] [TIFF OMITTED] T3488.001

[GRAPHIC] [TIFF OMITTED] T3488.002

                                 
    I was asked by the National Civic Art Society to judge the 
alternative competition for the Dwight D. Eisenhower Memorial. Having 
studied Mr. Gehry's design for some time, it was my conclusion that, 
though Mr. Gehry was a gifted architect, I believed that his style was 
ill-suited to achieve the monument required to honor as revered and 
accomplished a person as General Eisenhower. I declined their 
invitation, indicating that I thought it my patriotic duty to enter the 
competition instead and to encourage my friends to enter as well. I did 
so with a years-long colleague of mine, Michael Franck.
    I would like to disclose that my technology companies, Vizerra USA 
and VIMtrek, through our partner SmartBIM, work in a strategic alliance 
with Gehry Technology on the use of Building Information Modeling to 
allow buildings and monuments to be designed, built and maintained in a 
high standard of energy efficiency. I have enjoyed a friendship with a 
number of members of the Eisenhower family for years. I am an emeritus 
board member of the Institute of Classical Architecture and Art, which 
was a co-sponsor of the alternative competition. Michael Franck and I 
were among the winners of that competition. As a result of all of these 
issues, should there be another competition, I will not enter it.
    The rules of classicism are hierarchical. Precedent matters and our 
research of General Eisenhower called for a marshal design. We studied 
some of the greatest military leaders in history and tradition for the 
greatest of them was a triumphal column. The tallest ever supports Lord 
Nelson, in central London, which is 170 feet. Nelson saved England. 
Eisenhower saved England and Europe and hierarchy calls for a taller 
column for the General. At 178 feet, it would have been the tallest 
commemorative column on Earth. Our design placed him in his preferred 
simple soldier's D-Day uniform. The column is surrounded by 8 bands 
representing his years in the presidency. The plaza surrounding the 
column base is circular and contains 34 stars corresponding to his 
being the 34th president. There are five allegorical statues atop the 
fountains surrounding this circular plaza representing Family, 
Education, Progress, War and Peace. The cost is 51 million dollars.
    Cities are very fragile. The Eisenhower Memorial design could 
successfully achieve a renaissance in this precinct of Washington that 
was marred by Brutalist style urban renewal in the mid to late 20th 
century. In a city that is overflowing with green-scapes and parks, 
this site provides one of the most important urban circumstances to 
provide Washington her principle successful civic square, as called for 
by the McMillan Plan. A ``theater for the automobile'', which is how 
Mr. Gehry describes his design, will continue the exodus of inhabitants 
as soon as they are allowed to leave their Brutalist office workplaces. 
A design must conform with the 1791 L`Enfant Plan, which was enacted by 
President Washington, directed by Jefferson, and came to fruition in 
the 1901-2 Senate Park Improvement Plan (commonly known as the McMillan 
Plan).
    The L`Enfant and McMillan plans are the fundamental zoning codes 
for the city and Monumental Core. No subsequent zoning plan put forth 
by NPS, NCPC, or any other agency has ever replaced them. The Gehry 
plan, having gone through the GSA Design Excellence Program, has 
attempted to compromise this rule. The memorial commission and Gehry 
intend to redefine what it means to build a memorial, far exceeding the 
congressional mandate to build a memorial to honor Eisenhower's 
accomplishments.
    The National Monuments Foundation builds monuments from materials 
that last for centuries. Mr. Gehry does not typically spec this type of 
material. It is my understanding that the gigantic fence that is 
described as a tapestry is promoted by the Gehry team as larger than 
the Hollywood sign. In urban environments, acid rain, bird droppings 
and air quality will seriously disintegrate this feature and most 
likely cause security issues for pedestrians below. The only positive 
thing I can say about this is that most likely very few people would 
ever go there and so there is less chance that a large piece of junk 
would fall on someone's head. Trash collection in public spaces just 
happens. The wind blows, visitors are careless and here, this is 
particularly a problem. Gusts will blow standard city trash all over 
the 600-foot long fence. We have to clean our Millennium Gate park 
every day and the cost to clean Gehry's enormous structure, every day, 
will be expensive. This will be a giant trash filter for an entire 
area. Have you ever forgotten to change your air-conditioning filters 
for a few months? Mr. Gehry said that the pylons were inspired by 
Eisenhower Interstate Bridge supports. The pylons will need titanic 
footings to carry this weight, so a great deal of the cost is 
underground. I have heard that the pylons are to be concrete, stone 
and/or metal depending on who you spoke to last. Each has maintenance 
problems, but due to continual design changes, I am unable to help you 
at the present time with pylon issues.
    Fine Arts Commissioner McKinnell said ``[I]f I can be facetious, 
the tapestry, when you and I are long gone, will disintegrate and the 
columns will be left and it will be like [the Roman ruins of] Paestum 
and it will be marvelous. So I think that is wonderful. I seriously 
think that is wonderful.'' I have been to Paestum and have studied it 
thoroughly. This will not look like Paestum. This will look like the 
pylon ruins of the Embarcadero highway after the San Francisco 
earthquake.
    The Gehry memorial is currently described as a 120 million dollar 
gesture, though it changes every time I speak to someone new. Tens of 
millions have been spent to date on a model that is still changing and 
that very few Americans like. Though Eisenhower belongs to all of us, 
he truly belongs to the Eisenhower family and their opposition must be 
honored. Successive generations of this family have continued to serve 
our country and we owe them respect as much for that service as we do 
for their heritage. The Millennium Gate cost 21 million dollars and has 
beautiful interiors, world-class allegorical bronze sculpture and an 
extraordinary high-tech interactive theater within a four acre park. If 
you compare the two monuments, the annual maintenance cost of the 
Millennium Gate is $312,000. I can only guess, since the plan is always 
changing, that it would be in the millions, per year, for the Gehry 
memorial. 120 million dollars just to begin this is a giant financial 
boondoggle. You may have six Millennium Gates for the cost of one Gehry 
memorial, on similar sized sites. Regarding Mr. Gehry's fee, I attach 
the most recently published Atlanta Gross Architectural Revenue list. 
Perkins and Will tops the list at 53 million dollars, second is TVS at 
31 million and they go down from there. These are the annual fees of 
extremely large firms for an entire year. If they got a Gehry-type 
commission, they would only have to design one project a year!
    Gehry, though talented in his style, does not have the inclination 
to do the job the Eisenhower family and the American people need. Our 
generation will be judged in centuries to come by this work, so close 
to the greatest symbol of democratic government ever built. Do you want 
to be judged by this? Please call for a new and open competition.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Cook.
    Our final testimony will be given by Mr. Cole, who is the 
past chairman of the NEH. Mr. Cole, if you can pull the 
microphone right to you, that will make it easier to hear.

            STATEMENT OF BRUCE COLE, PAST CHAIRMAN, 
             NATIONAL ENDOWMENT FOR THE HUMANITIES

    Mr. Cole. Thank you very much, Chairman Bishop, Ranking 
Member Grijalva, and Members of the Committee. Thank you for 
asking me to testify today.
    I am a Senior Fellow at the Hudson Institute and on the 
Board of Advisors of the National Civic Arts Society. But this 
morning I speak only as a concerned citizen. My comments are 
based on my long experience as an academic art historian, 
university professor, and author of 14 books on the history of 
art.
    I will also draw on my seven-year service as Chairman of 
the National Endowment for the Humanities, where my principal 
initiatives dealt with the need to improve the teaching and 
understanding of American history for our young people, 
something they need to become informed, active citizens.
    It is of these young people that I think when contemplating 
Mr. Gehry's plan for the proposed memorial to Dwight 
Eisenhower. For me, Ike is still a living memory. His role as 
Supreme Commander of the Allied Forces which freed Europe from 
a great evil, and his two terms as President of the United 
States, are events through which I lived. I hate to say this, 
Mr. Chairman, but I was actually walking and not crawling at 
that time.
    [Laughter.]
    Mr. Cole. But what about our rising generations who lack 
this firsthand historical memory? What will they know, if 
anything, about this great American? To teach them not only 
about Ike and his deeds, but to give them a sense of his 
greatness and the debt we owe him, is the task of any monument 
worthy of bearing his name.
    This mission is admirably summarized in the 1999 law passed 
by Congress ordering that, ``An appropriate memorial to Dwight 
D. Eisenhower should be created to perpetuate his memory and 
his contributions to the United States.'' Such a monument 
should therefore memorialize and educate.
    In the execution of these tasks, the Gehry proposal not 
only fails, but fails utterly. I say this for many reasons, but 
mainly because a unifying narrative, a story, if you will, is 
absent in both conception and in design. Without this, no 
monument to an individual can succeed.
    The Gehry plan is a lot of incongruent things of wildly 
different shapes, proportions, materials, and sizes. There are 
enormous pillars, misnamed columns. Actually, columns support 
something and have a capital at the top; these do not. There 
are trees and aluminum mesh tapestries. The tapestries, despite 
Mr. Gehry's claim, are not usually an integral part of the 
history of monument. And these look more like chain-link 
fences. And there are inscriptions, and two large photo murals, 
all strewn about in a very large space. The result is that the 
whole is less than the sum of its parts.
    Compounding the problem is the enormity of the planned 
space. Few, if any, of the most successful monuments in the 
history of art are this grandiose, especially in our democratic 
republic where our Presidents, some of whom do not even have 
memorials, are seen as citizens, not super-humans. Two good 
examples are the Jefferson and Lincoln Memorials.
    But the present scheme for the four-acre site of the 
Eisenhower Memorial, filled with such disparate elements, will 
create diffusion and confusion of message, and if realized, 
will resemble an amusement park rather than a memorial.
    Moreover, like an amusement park, there is no overall 
narrative, no sequential story, and no central focus to guide 
visitors, particularly the many who will arrive with limited or 
no knowledge of President Eisenhower. The proposed profusion of 
digital interactive displays will be costly, difficult to 
maintain, and fragile. This so-called ``e-memorial'' is no 
substitute for compelling, coherent narrative providing 
knowledge, content, and inspiration.
    My remedy for the Eisenhower Memorial would be to go to 
back to the drawing board. Institute an open process seeking 
design, not simply qualifications. Solicit the input of the 
public, and seek a plan with a coherent and meaningful message, 
comprehensible to visitors for centuries to come.
    Moreover, I believe, in these hard economic times, 
something that costs the taxpayers upwards of $100 million has 
no justification. Instead, I would seek a much more modest, 
less ostentatious, and more sustainable solution.
    My only recommendation for the architectural style is that 
it be worthy of the hero it honors. Thank you.
    [The prepared statement of Mr. Cole follows:]

        Statement of Bruce Cole, Senior Fellow, Hudson Institute

    Mr. Chairman and members of the committee, thank you for asking me 
to testify today. I am a Senior Fellow at the Hudson Institute and on 
the Board of Advisors of the National Civic Art Society, but this 
morning I speak only as a concerned citizen.
    My comments are based on my long experience as an academic art 
historian, university professor, and author of fourteen books on the 
history of art. I will also draw on my seven years service as Chairman 
of the National Endowment for the Humanities, where my principal 
initiatives dealt with the need to improve the teaching and 
understanding of American history for our young people, something they 
need to become informed and active citizens.
    It is of these young people I think when contemplating Mr. Gehry's 
plans for the proposed memorial to Dwight Eisenhower. For me, Ike is 
still a living memory: his role as Supreme Commander of the Allied 
Forces which freed Europe from great evil, and his two terms as the 
President of the United States are events that I lived through.
    But what about our rising generations who lack this first-hand 
historical memory? What will they know, if anything, about this great 
American? To teach them not only about Ike and his deeds, but to give 
them a sense of his greatness and the debt we owe him, is the task of 
any monument worthy of bearing his name. This mission is admirably 
summarized in the 1999 law passed by Congress ordering that ``an 
appropriate memorial to Dwight [D.] Eisenhower should be created to 
perpetuate his memory and his contributions to the United States.'' 
Such a monument should, therefore, memorialize and educate. In the 
execution of these tasks, the Gehry proposal not only fails, but fails 
utterly.
    I say this for many reasons, but mainly because a unifying 
narrative, a story if you will, is absent in both conception and in 
design. Without this no monument to an individual can succeed.
    The Gehry plan is a lot of disparate things of wildly different 
shapes, proportions, materials and sizes. There are enormous pillars 
misnamed columns (columns support something and have a capital at the 
top, these don't), trees, aluminum mesh ``tapestries'' (tapestries are 
despite Gehry's claim, not usually an integral part of the history of 
monuments and these are more similar to chain-link fences), 
inscriptions, and two large photomurals, all strewn about in a four-
acre space. The result is that the whole is less than the sum of its 
parts.
    Compounding the problem is the enormity of the planned space. Few, 
if any, of the most successful monuments in the history of art are this 
grandiose, especially in our democratic republic where our presidents, 
some of whom do not even have memorials, are seen as citizens not super 
humans: two good examples are the Jefferson and Lincoln Memorials. But 
the present plan for the four-acre site of the Eisenhower Memorial, 
filled with such disparate elements, will create diffusion and 
confusion of message and, if realized, will resemble a huge amusement 
park rather than a memorial.
    Moreover, like an amusement park, there is no overall narrative, no 
sequential story, and no central focus to guide visitors, especially 
the many who will arrive with a limited or no knowledge of President 
Eisenhower. The proposed profusion of digital interactive displays will 
be costly, difficult to maintain, and fragile. This so-called ``e-
Memorial'' is no substitute for a compelling, coherent narrative which 
provides knowledge, content, and inspiration.
    My remedy for the Eisenhower Memorial would be to go back to the 
drawing board, institute an open process seeking designs (not simply 
qualifications), solicit the input of the public, and seek a plan with 
a coherent and meaningful message that will be comprehensible to 
visitors for centuries to come. Moreover, I believe that in these hard 
economic times there is simply no justification for building something 
that costs taxpayers upward of 100 million dollars. Instead, I would 
pursue a much more modest, less ostentatious, and more sustainable 
solution. My only recommendation for the architectural style is that it 
be worthy of the great man it honors.
    Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate the panel being here. I 
will also tell you, for the panel, that one of the things we 
may have, there may be written questions that the staff--or 
Committee, I am sorry--the Committee may have of you. If you 
would be kind enough to respond to those after this meeting at 
your own leisure, I would appreciate that.
    We will now turn to questions of the panel for this 
particular group. Mr. Grijalva, do you have questions?
    Mr. Grijalva. Thank you, Mr. Chairman.
    Let me begin with Mr. Whitesell. Did the Eisenhower project 
deviate from the process, the memorial process, that is in 
place?
    Mr. Whitesell. No, sir. It has followed that process pretty 
much to the letter.
    Mr. Grijalva. OK. And General, if I may, I understand you 
are still in the final stages of that design process?
    General Reddel. Actually, we are in the latter stages of 
the design process. The design process phase that we are in has 
been going on for two years.
    Mr. Grijalva. OK. That is the design process, not the 
selection process?
    General Reddel. No. It is the design process, to bring it 
to the stage where it can be presented as a final design. So we 
are in the last stages of the preliminary design approval 
process.
    Mr. Grijalva. And how is that being worked out with 
concerned parties at this point?
    General Reddel. Well, as I noted earlier, we have gone 
through a series of public meetings, which have been open to 
the public, and we have incorporated inputs as we receive them 
along the way. We asked for a delay in our appearance before 
the National Capital Planning Commission in order to give us 
more time to listen to the public and to particularly have the 
views of the family in a more complete form.
    Mr. Grijalva. And we have heard from some of the witnesses 
a consistent point that we need to start over. Just my 
curiosity: What would it cost to start over at this point?
    General Reddel. Well, the cost to begin over would be a 
cost in both time and in money. I would be happy to come back 
to you with more specific information, but we would be probably 
talking about another minimum of two years and costs of time. 
That is what we have spent at this point.
    If we were to start over with the process, if we were to be 
conservative, it might be as much as two to three years. We 
have spent, in the design of the Memorial, a $16 million sum of 
money, and I would anticipate that that cost would approximate 
that.
    Mr. Grijalva. The same question, Mr. Guerin. What is GSA's 
role at this point in the memorial process and in the design 
process? Was this a new use of the program?
    Mr. Guerin. It was not a new use of the program. Our role 
is advising the Commission in their activities. We are acting 
as project manager. We are supporting them with staff. And 
during the construction process, we will be supporting them 
there as well.
    Mr. Grijalva. Thank you.
    Mr. Segermark, thank you for being here today. If you could 
quickly explain to me what your organization's concept for the 
Memorial is. And specifically, other than the alternative 
competition which your organization sponsored, did the 
organization proper have a submission to the Eisenhower 
Memorial competition that was going on from the Commission?
    Mr. Segermark. Good question, sir. In fact, those that were 
entitled to submit something to the Commission were hand-picked 
by the GSA. So an unknown organization--by the way, we are not 
an organization of architects--but an unknown architect could 
not have provided a submission under the rules that they 
operated in. It was not an open competition.
    The designs that were submitted, I think, as I mentioned, 
show that there are alternatives, and great ones, available. 
And I am not saying that any of those submissions should have 
been adopted. But I think you would agree with me that those 
are more understandable than the Gehry proposal.
    Mr. Grijalva. Going back to you, Mr. Guerin, who could 
apply for that competition, given the comments that----
    Mr. Guerin. To characterize this as a closed competition 
really is not correct. GSA solicited for architects and 
landscape architects to apply for the opportunity. That was a 
qualifications-based selection, again based on the decision by 
the Commission to go in that direction.
    Any architect could apply for that opportunity. It is 
somewhat self-correcting in that the most qualified firms are 
the ones that apply for something like that. But we did get 44 
submissions. We evaluated those submissions and short-listed 
them down to seven, and then ultimately to four submissions, 
then had the opportunity to provide a design vision to the 
selection panel, which gave them the opportunity, then, to see 
what ideas were being proposed by the short-listed firms, and 
helped make the final selection.
    Mr. Grijalva. And one last question. My curiosity, Mr. 
Cook. You were a judge in this alternative competition that the 
art society hosted. And were all the designs that were in that 
competition of classical architecture?
    Mr. Cook. Not all. I was not a judge. I actually was asked 
to be a judge. I declined being a judge because I thought they 
needed as many entries as possible. And I was among the 
winners. And so there were a number of designs that were 
modern. There were a number of designs that were deco. There 
were, I would say, more classical than the others, but there 
was a broad range.
    Mr. Grijalva. OK. I yield. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    Mr. Kildee, do you have any questions?
    Mr. Kildee. No questions. Just apologize for being late. I 
had another Subcommittee meeting.
    I know that Congress does not have a great deal of 
expertise in matters like this. But, recognizing that, we do 
have people who have knowledge of things. We have set up a 
process to make sure that what we do there on monuments in the 
Mall are done correctly.
    And we have never relinquished our authority on that. We 
have always had problems. I was here when the Vietnam Memorial 
was designed and constructed. And we appreciate having a 
process, but at the same time, have not relinquished our 
authority in this area and our input on this.
    I want to thank you for all the work all of you have done. 
These things are not always without controversy and taste, and 
what should be shown about a person or an era is always going 
to involve controversy.
    I do appreciate all the work that you have done in your 
various responsibilities. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you, Mr. Kildee.
    Mr. Garamendi, do you have questions?
    Mr. Garamendi. Jumping into the middle of a controversy is 
not a good place for us to be. But there seems to be a process 
underway that is an iterative process. Ms. Eisenhower, you 
indicated that you have had a meeting with Mr. Gehry, and you 
were looking forward to another meeting.
    From the witnesses, it appears as though there is an 
ongoing process to reach a final design, and that a final 
design has not yet been developed. Is that correct? I guess we 
ask the Commission Executive Officer.
    General Reddel. The submission of a final design proposal 
has not been made. That is correct.
    Mr. Garamendi. OK. So there is still a process underway to 
develop that final design, and then the engineering drawings, 
construction, and so forth beyond that.
    Some have suggested starting all over. It seems to me that 
is not likely to be the path taken, but rather, a path that 
would, using the existing Gehry design or concepts, modify to 
address the concerns that may exist, would be a more productive 
path.
    And once again, if any of you would like to comment on 
that, I would be happy to hear from you, including the 
Eisenhower family if they would care to. But it seems as though 
we ought to be working toward a refining of where we are rather 
than starting all over. I suspect starting all over is probably 
another 10-year process.
    So anybody that would like to comment here.
    Mr. Cook. I would like to. My Foundation does competitions 
all the time, and we have built numbers of monuments and could 
organize a competition for something like this in six months.
    Mr. Garamendi. So you want to start all over?
    Mr. Cook. I think, as I had said in my testimony, that Mr. 
Gehry does not speak the language that the public and the 
Eisenhower family can read. And the cost is----
    Mr. Garamendi. Thank you. I am going to cut you off because 
I got--my question was pretty specific, start all over or work 
with designs.
    I think Susan Eisenhower would like to make a comment.
    Ms. Eisenhower. Congressman Garamendi, there is a marvelous 
exhibition on at the moment at the National Building Museum. It 
is called, ``Unbuilt Washington.'' It opened in November, and 
it is going to close at the end of May. But it tells the story 
of what Washington would have looked like if the first design 
had ever been adopted.
    I called the curator of that exhibition and asked how many 
major memorials in this town have ever been built from the 
first design. And he scratched his head a bit, and maybe others 
at the table will have a thought on this, too. But he said he 
thought probably only the Vietnam Veterans Memorial, and Maya 
Lin had produced a rather broad concept. But if that is the 
case--I mean, think of the FDR Memorial. It was not just three 
redesigns; it was three-plus designs before they got to a final 
plan.
    And so I think that we should not be afraid of looking at 
this issue because we are building something for the centuries 
and we want to get it right.
    Mr. Garamendi. I really had a dichotomy here, that is, dump 
where we are with Gehry and start over again, or work with 
Gehry and continue forward. So those are really the dichotomy 
thought I would like to present to us. Do you have a view of 
working with Gehry and continuing on, or dump it and go on?
    General Reddel. I do not think it is----
    Mr. Garamendi. Excuse me. I am talking to Ms. Eisenhower.
    General Reddel. Oh, I am sorry.
    Ms. Eisenhower. Just quickly, we are certainly planning to 
see him again. He is aware of our concerns. He is aware of the 
substance of my testimony today. And I think it is a very 
important stop to make, not only to talk to Mr. Gehry about 
what might be possible but, far more important, to make sure 
that this process is done in a respectful and courteous way.
    Mr. Garamendi. Thank you.
    Sir?
    General Reddel. I would like to affirm Mr. Gehry's 
availability. He is going out of his way, with his many 
projects around the world, to make himself available, and he 
continues to be in that mode. And if you look at his letter for 
the record, it expresses that view in writing, which he has 
submitted.
    I would like to make one other very brief comment, though, 
about delay. When we began our work, our Vice Chairman, who 
probably knows more about memorialization, has done more for 
memorials in the U.S. Congress than any other member of the 
U.S. Congress, Senator Daniel Inouye, joined our Commission.
    And at one point, someone said, ``We are taking a lot of 
time here.'' And he said, ``When I joined the FDR Commission, I 
sat at that end of the table. And after 30 years, I sat at that 
end of the table. And we do not want to go through this 
again.''
    And very recently, he brought to my attention the fact that 
he and other members of his generation who served in World War 
II would like to celebrate this Memorial. That was also 
affirmed by his fellow combat veteran, the Chairman. And of 
course, Senator Stevens felt that way as well.
    Delay is not always your friend, and in this case, they 
have looked at me as if I am a spring chicken and have told me 
to get on with it.
    Mr. Bishop. Thank you very much.
    Mr. Garamendi. Mr. Chairman, I think Anne Eisenhower wanted 
to----
    Mr. Bishop. Mr. Garamendi, do you have other rounds of 
questions that you want to ask?
    Mr. Garamendi. Yes.
    Mr. Bishop. Well, then, if this is your last question, we 
will ask Ms. Eisenhower to come up and answer that. If you have 
more questions you have in mind, then we will wait.
    OK. Would you just state--actually, Ms. Eisenhower, let me 
do the first one. Please answer his question, now that you are 
there at the table.
    Ms. Anne Eisenhower. If I can answer, I would like to 
answer two questions.
    General Reddel has said that Frank Gehry has made himself 
available to us quite a few times. I would like to point out 
for the record that each time we have been approached for this, 
we have been given one-week notice to either get all four 
grandchildren together to California, or in the case of the 
other two defaulting to our judgment, the two of us, and we 
also have very busy schedules.
    But I would like to answer the question that was put to the 
table which I do not believe was properly answered. And the 
question is, is there anything salvageable from the Gehry 
design?
    The question, at least in our minds, the family's mind, the 
biggest problem is probably not only the narrative, which we 
feel is incorrect, but from a sheer design point of view, the 
scrims. If you remove the scrims, which I understand Mr. Gehry 
is not willing to do, then you do not have a whole lot left. 
You have a little boy sitting on a ledge looking at two bas 
reliefs, which simply, the narrative is not correct.
    But, from a physical point of view, if you take away the 
scrims, the design is gone. And I think that answers the 
question.
    Mr. Bishop. Thank you, Ms. Eisenhower.
    Let me ask a couple questions, if I could. Let me start 
with Mr. Whitesell. We will try to go through as many of these 
as we have time for.
    Does the Department have an estimated annual cost to 
maintain this Memorial?
    Mr. Whitesell. No, we do not. We have talked with the 
Commission, and we anticipate receiving further information on 
some testing that they are going to be doing on the mesh 
panels. But we do not----
    Mr. Bishop. When do you assume you will have a ballpark 
figure for us?
    Mr. Whitesell. I do not know, sir. But I could get back to 
you.
    Mr. Bishop. OK. Mr. Guerin, if I could ask, a lot has been 
said about the process that is here. I think the design process 
is going traditionally, but certainly the selection process was 
different, as you had, in your words, the streamlined process 
that came up with the short list of firms before you opened it 
up.
    Can you tell me why you asked for portfolios from these 
firms and not actual designs, as is normally done?
    Mr. Guerin. The selection process is a qualifications-based 
selection process. It is based on the Brooks Act to select 
architects and designers, so it requires that we ask for 
qualifications first. And we then had a design vision with the 
short-listed firms.
    Mr. Bishop. From the short list only, though?
    Mr. Guerin. That is correct.
    Mr. Bishop. OK. Can you tell me if the fee for Mr. Gehry, 
as far as a percent of the overall project, is in line with 
other fees that have been done for Federal monuments?
    Mr. Guerin. It is in line with other fees.
    Mr. Bishop. Can you tell me roughly what that percentage 
would be, not necessarily a dollar amount?
    Mr. Guerin. It is roughly 10 percent, and is made up of a 
number of different things, including the testing that is going 
on right now with the scrims.
    Mr. Bishop. Are you aware of how much money from Fiscal 
Year 2012, the appropriation, the 2012 appropriation, has been 
spent?
    Mr. Guerin. I do not know that.
    Mr. Bishop. Do you have any idea what the obligations from 
existing contracts would be if they were canceled?
    Mr. Guerin. Right now, we have, with the architect, about 
$9,800,000 of contracted work. They have spent about $7.2 
million.
    Mr. Bishop. Thank you.
    General, if I could ask you a couple of questions. An 
important principle of the Commemorative Work Act is consensus. 
With the concerns that have been raised, especially by the 
family, can this committee conclude that there is any consensus 
around this design?
    General Reddel. The input that we have been receiving is at 
variance with some of the opinions you have heard here today. 
When we had our last Commission meeting in July of this past 
year, which included at that time our Commissioner David 
Eisenhower, the Commission felt that it had consensus.
    Mr. Bishop. Do you still feel that way?
    General Reddel. Clearly, we do not have consensus today.
    Mr. Bishop. When did you first become aware that the family 
had serious concerns with the design, and how did the 
Commission attempt to reconcile those concerns?
    General Reddel. The current dynamic of concern and 
controversy became apparent to us following the Commission 
meeting of July this last year.
    Mr. Bishop. Thank you. There are some missing minutes from, 
I think, July 2007 to March 2009. Where are those minutes, and 
can we get a copy of those?
    General Reddel. There was not a meeting of the Commission 
at that time. And from our viewpoint----
    Mr. Bishop. In that two-year time period?
    General Reddel. Pardon me?
    Mr. Bishop. In the two-year time period? From July 2007 to 
March 2009, you had no meetings?
    General Reddel. I believe that is correct. Yes, sir. In 
other words, the business of the Commission at that time did 
not include a full Commission meeting.
    Mr. Bishop. That is unusual. Why did you choose to run the 
competition by the GSA Design Excellence Program?
    General Reddel. Simply put, the complexity of this site, 
which was identified in the National Capital Planning 
Commission's Master Plan for Memorials, presented us with an 
unusual challenge in urban design.
    I am not an architect, but the size and location of 
Eisenhower Square, which was attractive to us because it fit 
Eisenhower in a particular and powerful personal way, presented 
a wide range of design challenges.
    Mr. Bishop. I am running out of time, so let me make these 
very quick. Does that process favor large, established firms?
    General Reddel. I cannot speak to the process. I do not 
know the history of GSA's experience with that.
    Mr. Bishop. I am assuming that, obviously, an unknown 
designer could have been selected. But does that process that 
we used basically make that an unfair reality?
    General Reddel. I find that correct. Yes, sir.
    Mr. Bishop. I do want to say one other thing. We have 
repeatedly said on this panel that we are not experts in this 
area. Unfortunately, eight of the 12 members of the Commission 
are Members of Congress, so I certainly hope Congress does have 
some expertise in this area; otherwise, we are all screwed.
    [Laughter.]
    Mr. Bishop. Do you have any other questions? Mr. Kildee, 
any other questions you have?
    Mr. Kildee. No.
    Mr. Bishop. Let me conclude this by thanking all of you for 
being here. I appreciate the family for being here. And I 
certainly hope, as we go forward with this, that there will be 
a broad consensus of what is going forward. We have one chance 
to make this correct and do it right, and it needs to be there.
    I thank you for your commitment to this enterprise. I 
think, for me personally, I do want to see a very good, a very 
accurate memorial to General Eisenhower and President 
Eisenhower. It is important for this community. It is important 
to do it. Hopefully you can cover up what I think is one of the 
uglier buildings in Washington while you are doing it.
    [Laughter.]
    Mr. Bishop. But that is beside the point. But the idea of 
having consensus coming up with the design is important. And I 
realize that many times when we have done multiple designs and 
come up with different ideas, it has produced something that is 
very spectacular. I think World War II is a perfect example of 
being able to do something and do it right. This is another one 
that I want us to make sure that we do it right.
    I appreciate your willingness to be here and to testify, 
for all of you who have been here. And, once again I say that 
there may be questions that the Committee has of witnesses who 
are here. We will submit those to you in writing, and we ask 
for your written response as well.
    With that, if there are no other questions, this committee 
is in recess--is adjourned. Adjourned. Adjourned.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The David Eisenhower letters submitted for the record 
follow:]

[GRAPHIC] [TIFF OMITTED] T3488.008

[GRAPHIC] [TIFF OMITTED] T3488.009

[GRAPHIC] [TIFF OMITTED] T3488.010

                               <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
